                                              OCCUPATIONAL SAFETY AND
                                              HEALTH ADMINISTRATION

Office of Inspector General—Office of Audit




                                              OSHA NEEDS TO EVALUATE THE IMPACT AND
                                              USE OF HUNDREDS OF MILLIONS OF DOLLARS
                                              IN PENALTY REDUCTIONS AS INCENTIVES FOR
                                              EMPLOYERS TO IMPROVE WORKPLACE SAFETY
                                              AND HEALTH




                                                                Date Issued:   September 30, 2010
                                                             Report Number:      02-10-201-10-105
U.S. Department of Labor                                         September 2010
Office of Inspector General
Office of Audit                                                  OSHA NEEDS TO EVALUATE THE IMPACT
                                                                 AND USE OF HUNDREDS OF MILLIONS OF
                                                                 DOLLARS IN PENALTY REDUCTIONS AS
BRIEFLY…                                                         INCENTIVES FOR EMPLOYERS TO IMPROVE
                                                                 WORKPLACE SAFETY AND HEALTH
Highlights of Report Number: 02-10-201-10-105, to the
Assistant Secretary for Occupational Safety and Health.
                                                                 WHAT OIG FOUND
WHY READ THE REPORT                                              OSHA has not effectively evaluated the impact of $351
Occupational Safety and Health Administration’s (OSHA)           million in penalty reductions as an incentive for employers to
use of penalty assessments and the impact on workplace           improve workplace safety and health. Small employers
safety and health have been subjects of OIG and GAO              received the largest reductions (78 percent), but generally
reports since September 1987. As recently as August 2004,        had the worst safety and health history — more inspections,
GAO reported that OSHA had not effectively evaluated its         more fatalities, and more high-gravity serious (likely to
penalty assessments.                                             cause death) and repeat violations.

In setting penalty amounts, OSHA is required to consider         OSHA did not always consider an employer’s overall safety
the seriousness of violations, as well as employer’s size,       and health performance when reducing penalties, in part
good faith, and history. While penalty reductions are not        because its information system cannot effectively track
mandated, OSHA’s policies are intended to (1) encompass          violations company-wide. We found 4,791 employers with a
the general character of an employer’s safety and health         history of serious violations had received penalty reductions
performance and (2) use significant penalty reductions to        of $86.6 million. Half of these employers received reductions
provide incentives for employers to abate workplace              of $42.6 million on subsequent inspections where a similar
violations voluntarily. In total, penalty reductions can be as   standard was violated indicating the employer’s hazard
much as 100 percent.                                             corrections may not have been comprehensive and
                                                                 company-wide.
For inspections OSHA conducted between July 2007 and
June 2009, 98 percent of citations received penalty              We found as much as $127 million (36 percent) in penalty
reductions, with reductions totaling $351 million. A driving     reductions may not have been appropriately granted.
factor for reducing penalties was the employer’s right to        Specifically, reductions granted in consideration of the
contest an inspection, which could delay abatement and           employers’ size resulted in what amounts to an entitlement
continue to expose employees to hazards. Officials               as 98 percent of all citations were reduced at the maximum
maintained that reduced penalties would lead to quicker and      rate. OSHA can limit size reductions for small employers
more comprehensive abatement. By effectively using               with the more serious violations, but its use of that policy
penalty reductions, OSHA could potentially reduce the risk       was minimal and up to $91.8 million of reductions may have
of future injuries, illnesses, and fatalities.                   been granted inappropriately. Another $2.3 million of
                                                                 reductions exceeded limits set forth in the directives.
WHY OIG CONDUCTED THE AUDIT
The objective of this audit was to answer the question: Has      OSHA Area Directors did not document the justification for
OSHA effectively evaluated the impact of penalty reduction       reductions resulting from informal settlement agreements,
incentives on workplace safety and health?                       for an estimated 49 percent of reductions or $31.8 million.

The audit covered 49,192 Federal OSHA inspections of non-        Finally, we found that OSHA incorrectly granted history
Federal employers initiated between July 2007 and                reductions of $1.1 million to employers with prior violations.
June 2009. The inspections resulted in 142,187 citations
and $523.5 million in penalties which were reduced by            WHAT OIG RECOMMENDED
$351.2 million (67 percent).                                     The OIG made 11 recommendations to the Assistant
                                                                 Secretary for Occupational Safety and Health to commit the
READ THE FULL REPORT                                             necessary resources to effectively evaluate the impact of
To view the report, including the scope, methodology, and        penalty reductions, improve information systems, and revise
full agency response, go to:                                     and implement policies and procedures.

http://www.oig.dol.gov/public/reports/oa/2010/02-10-201-10-      OSHA provided comments on our report expressing
105.pdf                                                          concerns about some audit findings and recommendations.
                                                                 Based on OSHA’s response, we clarified two
                                                                 recommendations, but our overall conclusions remain
                                                                 unchanged.
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
                                   Report No. 02-10-201-10-105
                                                            U. S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2
Objective - Has OSHA effectively evaluated the impact of penalty reduction incentives
            on workplace safety and health?

         OSHA reduced penalties extensively, but impact not determined. ....................... 3

         Finding 1 — OSHA has not effectively evaluated the impact of penalty
                     reductions as an incentive for employers to improve
                     workplace safety and health............................................................ 4
         Finding 2 — OSHA reduced penalties on an inspection and per violation
                     basis, without always considering an employer’s overall
                     safety and health performance........................................................ 5
         Finding 3 — Up to $127 million of reductions may not have been
                     appropriately granted because OSHA directives lacked clear
                     guidance and Area Office staff did not always comply with or
                     make full use of directives............................................................... 7

Exhibits
         Exhibit 1 Penalty Reductions by Employer Size ................................................. 19
         Exhibit 2 Employers with Serious Violations on Two or More Inspections
                    and Fatalities ...................................................................................... 21

Appendices
         Appendix A Background ..................................................................................... 37
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 39
         Appendix C Acronyms and Abbreviations .......................................................... 43
         Appendix D Glossary of Terms........................................................................... 45
         Appendix E OSHA Response to Draft Report .................................................... 49
         Appendix F Acknowledgements ......................................................................... 61




                                                                         OSHA Needs to Evaluate Penalty Reductions
                                                                                      Report No. 02-10-201-10-105
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
                                   Report No. 02-10-201-10-105
                                          U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


September 30, 2010


                        Assistant Inspector General’s Report



Dr. David Michaels
Assistant Secretary for
 Occupational Safety and Health
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210


The purpose of the Occupational Safety and Health Act of 1970 (OSH Act) is to assure
as far as possible that workers have safe and healthful working conditions by
encouraging employers to reduce hazards, and institute safety and health programs.
When unsafe conditions are identified, inspectors from the Occupational Safety and
Health Administration (OSHA) issue citations with Gravity-Based Penalties (penalties).
In setting penalty amounts, OSHA is required to consider the seriousness of violations,
as well as employer’s size, good faith, and history. While reduction rates are not
mandated, OSHA’s policies are intended to use significant penalty reductions to provide
incentives for employers to abate workplace violations voluntarily.

OSHA directives require assessment of its programs with the goal of improving results.
OSHA’s penalty assessments and the impact on improvements to workplace safety and
health has been the subject of Office of Inspector General (OIG) and U.S. Government
Accountability Office (GAO) reports since September 1987. As recently as August 2004,
GAO reported that OSHA had not effectively evaluated its penalty assessments.
(See Appendix A, Background for five related OIG and GAO reports.)

The objective of this audit was to answer the following question:

      Has OSHA effectively evaluated the impact of penalty reduction incentives on
      workplace safety and health?

The audit covered 49,192 Federal OSHA inspections of non-Federal employers initiated
during the 2-year period between July 1, 2007, and June 30, 2009. The inspections
resulted in 142,187 citations and $523.5 million in penalties, which were reduced by
$351.2 million, or 67 percent of total penalties.

For the audit period, we evaluated internal controls over penalty reductions and
assessed the reliability of related inspection data. We reviewed OSHA policies and

                                                       OSHA Needs to Evaluate Penalty Reductions
                                             1                      Report No. 02-10-201-10-105
                                          U. S. Department of Labor – Office of Inspector General


procedures, related OIG and GAO reports, and OSHA internal monitoring reports. We
traced computer generated data to source documents, identified employers with two or
more inspections with serious violations, and we examined a random sample of
180 case files. Interviews were conducted with officials at OSHA National, Regional,
and Area Offices, and with Regional Solicitors of Labor.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

RESULTS IN BRIEF

OSHA has not effectively evaluated the impact of penalty reductions as an incentive for
employers to improve workplace safety and health. During the 2-year audit period,
98 percent of citations for safety and health violations received reductions. Penalties of
$523.5 million were reduced by $351.2 million, or 67 percent. Penalty reductions were
used to provide an incentive for employers to correct violations and improve workplace
safety and health. Another driving factor for reductions was the employer’s right to
contest the inspection, which could delay abatement and continue to expose employees
to hazards. However, OSHA management had not committed the necessary resources
or placed the appropriate emphasis to evaluate the use of penalty reductions and the
impact on workplace safety and health. As a result, OSHA cannot determine if the use
of $351.2 million of penalty reductions was effective in reducing hazards and improving
workplace safety and health.

OSHA reduced penalties on an inspection and per violation basis, without always
considering an employer’s overall safety and health performance. OSHA’s Integrated
Management Information System (IMIS) cannot effectively track employers with
company-wide violations, which can be affected by the lack of quality data due to
employer-related companies and name variations. We found 24 percent of the violations
were issued to 4,791 employers (227 with fatalities) that had a history of serious
violations in two or more inspections and received reductions of $86.6 million. These
reductions averaged $18,076 per employer and ranged up to $480,400. Half of these
employers violated a similar standard on subsequent inspections, indicating that
correction of workplace hazards may not have been comprehensive and company-wide.

Finally, we found that OSHA’s directives for reducing penalties did not provide clear
guidance, and integrate the size, good faith, and informal settlement reductions with an
employer’s overall character. Area Office Directors and staff did not always comply with
or make full use of these directives. OSHA has not effectively used the results from its
own internal reports to clarify directives and ensure compliance with its directives. As a
result, up to $127 million (36 percent) of the $351.2 million of penalty reductions may
not have been appropriately granted. This consisted of $94.1 million of potentially


                                                    OSHA Needs to Evaluate Penalty Reductions
                                            2                    Report No. 02-10-201-10-105
                                           U. S. Department of Labor – Office of Inspector General


excessive size reductions, $31.8 million of unjustified informal settlement reductions,
and $1.1 million of erroneous history reductions.

   •   OSHA’s use of size reductions resulted in what amounts to an entitlement, as
       98 percent of all cited violations were reduced at the maximum allowable rate.
       Small employers generally had the worst safety and health history — the most
       inspections, fatalities, and high-gravity serious (likely to cause death) and repeat
       violations — and while OSHA has a policy where it can limit size reductions for
       these employers, its use of the policy was minimal, as 97 percent of more serious
       violations received maximum reductions. As a result, size reductions of up to
       $94.1 million may have been excessive.

   •   Area Directors did not document the justification for reductions settled informally
       for an estimated 49 percent of reductions. As a result, $31.8 million of unjustified
       informal settlement reductions were granted.

   •   Compliance officer reductions of $1.1 million for history were not in compliance
       with OSHA directives.

We recommend that the Assistant Secretary for Occupational Safety and Health commit
the necessary resources to effectively evaluate the impact of penalty reductions on
comprehensive improvements to workplace safety and health, improve information
systems, and revise and implement policies and procedures.

In response to our draft report, the Assistant Secretary for Occupational Safety and
Health indicated that OSHA is statutorily required to consider various factors in
assessing penalties and, in doing so, has no discretion with respect to specific
reductions. However, our report maintains that while it is mandatory that OSHA consider
these factors, specific adjustments to penalties can and should be evaluated on a case-
by-case basis depending on numerous factors such as the employer’s safety record. To
ensure the clarity of our position, we clarified recommendations 5 and 10 from the draft
version of this report. OSHA’s response was incorporated in its entirety as Appendix E.


RESULTS AND FINDINGS

Objective — Has OSHA effectively evaluated the impact of penalty reduction
            incentives on workplace safety and health?

       OSHA reduced penalties extensively, but impact not determined.

For the 2-year period, penalties of $523.5 million were reduced by 67 percent. However,
OSHA has not effectively evaluated the impact of penalty reductions and the effect in
reducing workplace hazards. In granting penalty reductions, OSHA did not always
consider an employer’s overall safety and health performance as employers with
histories of serious violations were granted penalty reductions. Furthermore, OSHA

                                                     OSHA Needs to Evaluate Penalty Reductions
                                             3                    Report No. 02-10-201-10-105
                                              U. S. Department of Labor – Office of Inspector General


directives lack clear guidance, were not always complied with, and had provisions that
were not fully utilized. As a result, OSHA cannot determine if $351.2 million of penalty
reductions was effective in reducing workplace hazards. Up to $127 million of the
$351.2 million may not have been appropriately granted.

Finding 1 — OSHA has not effectively evaluated the impact of penalty reductions
            as an incentive for employers to improve workplace safety and health.

Penalties for violating safety and health standards of $523.5 million were reduced by
$351.2 million (67 percent) for the 2-year period July 1, 2007, to June 30, 2009. The
average inspection resulted in penalties of $10,642, which were reduced by $7,143 to a
final penalty of $3,499. OSHA directives require the assessment of its programs with the
goal of improving results. However, management did not commit the necessary
resources or place the appropriate emphasis to evaluate the use of penalty reductions
as an incentive for employers to improve workplace safety and health. As a result,
OSHA cannot determine if $351.2 million of penalty reductions was effective in reducing
workplace hazards.

OSHA penalty reductions include — reductions by OSHA Compliance Safety and
Health Officers (compliance officer) at initial citation (size, history, good faith, and quick-
fix), and post-citation reductions (informal settlement by OSHA Area Directors, and
other reductions by the Solicitor of Labor (SOL) and judicial decisions). Total penalty
reductions by type are shown below and details by employer size are in Exhibit 1.

                                Type of Reduction                     Amount
                 Compliance Officer Reductions
                    Size                                            $224.0 million
                    History                                           34.2 million
                    Good Faith                                        11.7 million
                    Quick-Fix                                          0.2 million
                         Subtotal Compliance Officer                $270.1 million
                 Post-Citation Reductions
                    Informal Settlements - OSHA Area Directors       $68.3 million
                    Other reductions - SOL and Judicial Decisions     12.8 million
                         Subtotal Post Citation                      $81.1 million
                 Total Reductions                                   $351.2 million

OSHA’s Management Accountability Program (MAP) requires OSHA, “… to assess the
efficiency and effectiveness of field activities in relation to established policies and
procedures, and identify best practices and deficiencies in performance with the goal of
improving program results.” The OSH Act intended to assure so far as possible safe
and healthful working conditions by encouraging employers to reduce hazards, and to
create/improve safety and health programs. Employers are required to furnish
workplaces free from recognized hazards that are likely to cause death or serious
physical harm, and comply with occupational safety and health standards. OSHA
directives state that penalty reductions were designed primarily to provide an incentive



                                                        OSHA Needs to Evaluate Penalty Reductions
                                                 4                   Report No. 02-10-201-10-105
                                           U. S. Department of Labor – Office of Inspector General


toward correcting violations voluntarily. Furthermore, reductions were to be based on
the general character of a business and its safety and health performance.

However, OSHA has not effectively evaluated the use of penalty reductions for size,
history, good faith, and informal settlements, and the impact on comprehensive
corrections of workplace hazards. Weaknesses in OSHA’s penalty system were
reported by OIG in September 1987, and also by GAO in April 1992 and August 2004.
For example, GAO reported in 1992 that OSHA believed penalty reductions would result
in comprehensive abatement, but GAO concluded that a causal link between penalty
reductions and more comprehensive abatement could not be established. Without an
effective evaluation, OSHA cannot determine if $351.2 million of penalty reductions
granted to employers was an effective incentive in reducing workplace hazards.

Finding 2 — OSHA reduced penalties on an inspection and per violation basis,
            without always considering an employer’s overall safety and health
            performance.

For inspections in the audit period, 34,457 of 142,187 citations (24 percent) were issued
to 4,791 employers that had a history of serious violations in 2 or more inspections.
Half of these employers violated a similar standard on subsequent inspections
indicating that correction of workplace hazards may not have been comprehensive and
company-wide. Reductions were granted without always considering employer’s overall
safety and health performance partly due to the inability of OSHA’s Integrated
Management Information System (IMIS) to effectively track employers with
company-wide violations. As a result, $86.6 million of reductions was granted to
employers with serious violations in 2 or more inspections. This consisted of $25.2
million for the first inspection and $61.4 million for subsequent inspections.

OSHA Field Operations Manual Chapter 6, states, “The penalty structure in Section 17
of the OSH Act is designed primarily to provide an incentive for preventing or correcting
violations voluntarily ... these reduction factors are based on the general character of an
employer’s safety and health performance ...”

The 4,791 employers with a history of serious violations in 2 or more inspections
received reductions of $86.6 million, which averaged $18,076 per employer and ranged
up to $480,400. Half of these employers received reductions of $42.6 million on
subsequent inspections where a similar standard was violated; indicating that correction
of workplace hazards may not have been comprehensive and company-wide. See table
below for reductions granted to the 4,791 employers with a history of serious violations:

                               Reduction Type        Amount
                             Size                  $52.4 million
                             History                 5.3 million
                             Good Faith              2.5 million
                             Post Citation          26.4 million
                               Total Reductions    $86.6 million



                                                     OSHA Needs to Evaluate Penalty Reductions
                                             5                    Report No. 02-10-201-10-105
                                                 U. S. Department of Labor – Office of Inspector General


Of the 4,791 employers with a history of serious violations, 227 employers had fatalities
and received reductions of $4.6 million. Average reductions ranged from 65 percent for
small employers to 33 percent for very large employers. See Exhibit 2 for details. 1

IMIS cannot effectively track inspection information company-wide. Staff lacked IMIS
access to inspection information on the amount and type of reduction applied by other
Area Offices, and OSHA’s website is not fully transparent as it does not display the
amount of gravity-based penalty and reductions by type. Furthermore, history
determination is a manual search process, which can be affected by the lack of quality
data for searches due to employer-related companies and name variations. This is a
repeat finding from a prior OIG audit report, Employers With Reported Fatalities Were
Not Always Properly Identified and Inspected Under OSHA's Enhanced Enforcement
Program, (Report No. 02-09-203-10-105, Issued March 31, 2009) which reported:

        OSHA officials indicated that history searches are subject to errors due to
        the lack of quality information on the employer in IMIS. Employers could
        have several different names in IMIS due to spelling errors; abbreviations;
        punctuation; name variations; and different divisions, operating units or
        physical locale. History searches may also omit events of related
        companies such as parent and subsidiary, because the names are not
        linked in IMIS.

The following inspections illustrate employers with a history of violations that received
reductions where OSHA officials did not consider the general character of an
employer’s safety and health performance.

    •   Swallow Construction was cited (one willful and two repeat) for violating the
        same standard on 3 inspections between August 2007 and March 2008. In
        August 2007, an employee died in Arlington Heights, IL, from electrocution when
        a backhoe came into contact with live overhead power lines. 2 OSHA cited
        Swallow Construction for willful violation of protective systems requirements,
        related to the fatality, and designated the company for the Enhanced
        Enforcement Program (EEP), which defined target employers as recalcitrant and
        indifferent to the OSH Act. In Aurora, IL, Swallow Construction was subsequently
        cited for repeat violations 7 days later in August 2007 and again 7 months later in
        March 2008. For the 3 inspections, Swallow Construction received 9 violations
        with $241,000 in penalties which were reduced $134,500 ($104,100 by OSHA
        and $30,400 by judicial decisions) to $106,500 of final penalty.

    •   KMA Manufacturing of Beaver, PA, was cited for 14 violations of similar
        standards in 2 of 3 inspections within a 6-month period from December 2007 to
        May 2008. In December 2007, OSHA designated KMA Manufacturing for EEP


1
  Imperial Sugar Company penalty amounts of $8.8 million were excluded so as not to distort results and
averages for employers with fatalities and a history of serious violations.
2
  Source: OSH Review Commission Docket No. 08-0174, February 9, 2009.

                                                           OSHA Needs to Evaluate Penalty Reductions
                                                   6                    Report No. 02-10-201-10-105
                                              U. S. Department of Labor – Office of Inspector General


          after a six ton cylinder fell on an employee resulting in his death. 3 KMA
          Manufacturing was cited for three violations of overhead and gantry cranes
          standards related to the fatality. In May 2008, KMA Manufacturing was cited for
          violating similar overhead and gantry standards and with penalties of $5,000 that
          were reduced by $3,500 ($2,000 by OSHA and $1,500 by judicial decision). For
          the 3 inspections in the 6-month period, KMA Manufacturing had 55 violations
          with penalties of $199,000 which were reduced $134,000 ($79,600 by OSHA and
          $54,400 by judicial decisions) to $65,000 of final penalty.

      •   DEC Management of Niagara Falls, NY, was cited for violating similar standards
          for fall protection and training in 4 inspections at the same worksite between
          August 2007 and January 2008. During a second inspection in October 2007,
          one worker was killed and another injured when a concrete panel shifted and the
          workers fell 25 feet to the ground. 4 OSHA cited violation of fall protection as
          related to the death and designated DEC Management for EEP. Subsequently,
          fall protection and training standards were cited in failure-to-abate notices in
          November 2007 and then as repeat violations in January 2008. For the
          4 inspections, DEC Management was cited for 12 violations with penalties of
          $94,000 which were reduced by $29,950 ($28,950 by OSHA and $1,000 by
          judicial decisions) to $64,050 of final penalty.

Finding 3 — Up to $127 million of reductions may not have been appropriately
            granted because OSHA directives lacked clear guidance and Area
            Office staff did not always comply with or make full use of directives.

In setting penalty amounts, OSHA is required to give consideration to the gravity of
violations, and employer’s size, good faith, and history. In total, penalty reductions can
be as much as 100 percent. OSHA has many directives, some of which need
clarification and others need full implementation. OSHA has not effectively used the
results from its own internal reports to clarify directives and ensure compliance.
Furthermore, OSHA’s directives did not clearly correlate the size, good faith, and
informal settlement reductions with an employer’s overall character. Specifically, we
found:

      •   Size reductions were routine and became more of an entitlement, as 98 percent
          of all cited violations were reduced at the maximum allowable rate.

      •   Informal settlements lacked documented justification for 49 percent of reductions.

      •   History reductions were granted to employers with prior violations.

      •   Good faith reductions were granted without consideration of an employer’s
          history of serious violations.

3
    Source: Pittsburgh Tribune-Review, July 1, 2008.
4
    Source: OSHA Region 2 News Release, 08-254-NEW/BOS 2008-059, February 29, 2008.

                                                        OSHA Needs to Evaluate Penalty Reductions
                                                7                    Report No. 02-10-201-10-105
                                                    U. S. Department of Labor – Office of Inspector General


As a result, up to $127 million of penalty reductions may not have been appropriately
granted. This consisted of $94.1 million of potentially excessive size reductions,
$31.8 million of unjustified informal settlement reductions, and $1.1 million of history
reduction errors. Furthermore, OSHA has not effectively used available tools such as
Corporate-wide Settlement Agreements (CSA) and the nationwide quick-fix program to
secure comprehensive corrections of workplace hazards.

Size Reductions generally were routine

The OSH Act allows due consideration to the appropriateness of the penalty with
respect to the size of the employer. Reductions rates range from zero for very large
employers to 80 percent for willful violations of small employers. (See Appendix D,
Glossary of Terms for detail rate structure.) Reductions for size totaled $224 million.
OSHA officials stated they believed that reductions for employer size would be used by
employers to make improvements in workplace safety and health. However, OSHA’s
use of size reductions changed the nature of those reductions from an “incentive based
on the character of the business” to an entitlement, as 98 percent of all cited violations
were reduced at the maximum allowable rate. Moreover, OSHA did not always take into
account company-wide size variances within a 12-month period. As a result, size
reductions up to $91.8 million may have been inappropriately granted to employers with
serious violations, and an additional $2.3 million exceeded limits set forth in directives.

Small employers received size reductions of $173.1 million. The average inspection had
penalties of $10,049 that were reduced by 60 percent or $5,992. However, small
employers generally had the worst safety and health history — the most inspections,
fatalities, and high-gravity serious (likely to cause death) and repeat violations.

OSHA has a policy in which it could limit penalty reductions based on size for small
employers that demonstrated a lack of concern for safety and health (i.e., one or more
serious violations of high gravity or a number of serious violations of moderate gravity).
The use of this policy was minimal, as 97 percent of the 25,457 more serious violations
received the maximum reduction allowable for size totaling $91.8 million. Furthermore,
we identified penalty reductions totaling $2.3 million, which were not in accordance with
directives for employer size and established reduction rates.

Some of the more serious fatality inspections illustrate (1) OSHA’s failure to limit penalty
reductions based on size for small employers that demonstrated a lack of concern for
employee safety and health, and (2) excess size reductions granted which were not
consistent with reductions based on company-wide employer size. For example,

      •   Buzzell Tree Service willfully violated standards for proper logging equipment,
          which resulted in the death of an employee in Kingston, NH. OSHA cited Buzzell
          Tree Service for 6 violations with $152,500 in penalties, which were reduced
          $140,375 to final penalty of $12,125. Of the penalty reductions, $112,000 was
          granted for the maximum size reduction of 80 percent 5 on 2 willful violations with
5
    80 percent is allowable maximum for small employers with willful violations.

                                                               OSHA Needs to Evaluate Penalty Reductions
                                                       8                    Report No. 02-10-201-10-105
                                                  U. S. Department of Labor – Office of Inspector General


        penalties of $140,000. OSHA also identified the employer as an EEP. The
        employee was trying to secure an 82-foot pine tree when it fell on him.
        Prosecutors alleged Buzzell Tree Service required employees to stand in front of
        trees that were being felled, holding onto rope and pulling the tree directly toward
        them. Workers allegedly were required to maintain position under the tree until it
        began to fall. A judge sentenced Maurice Buzzell (owner of Buzzell Tree Service)
        to a suspended jail term for causing the death of his employee. 6

    •   Dakota Pump & Control of Aberdeen, SD, was cited for a serious violation of a
        confined space standard related to two deaths, but received the maximum size
        reduction of 60 percent, totaling $3,000. Two men were repairing a pipe at a
        sewer lift station when they were overcome by hydrogen sulfide fumes and died.
        Neither one had safety gear with them at the time. 7 Three months later, the
        company was cited again at the same worksite for a confined space violation,
        and received the maximum reduction of 60 percent for size totaling $3,000. For
        the 2 inspections, Dakota Pump & Control was cited for 4 serious violations with
        penalties of $20,000, which were reduced by $15,625 to final penalties of $4,375.

    •   5M Construction of Guam was cited for 13 serious violations during 6 inspections
        from January 2008 to February 2009. Total penalties of $58,200 were reduced by
        $39,859 to final penalties of $18,341. In 5 inspections, OSHA granted 5M
        Construction excess size reductions of $17,100 based on erroneous rates for the
        company size in the prior 12 months. The chart below further illustrates the
        excess size reductions.

                          Company      Max Size                  Rate       Rate
          Inspection      Size Per     Prior 12                 Granted    Allowed      Excess
          Open Date      Inspection    Months       Penalty       (%)         (%)      Reduction
                                                            8
           1/22/2008         150         150        $29,700        60          20         $7,000
           1/29/2008          25         150         19,000        60          20          7,600
           4/23/2008          75         150          2,000        40          20            400
           5/30/2008          23         150          4,500        60          20          1,800
           11/3/2008          32         150          1,500        40          20            300
                        TOTALS:                     $56,700                              $17,100


Informal Settlement Reduction justifications were not always documented by
OSHA Area Directors

Informal Settlement reductions for the audit period totaled $68.3 million; however,
OSHA Area Directors did not always document the justification. OSHA’s policy on
informal settlements lacks clear guidance as to the specific improvements to workplace
safety and health that would justify reductions, and OSHA officials stated that a driving
factor for reducing penalties was the employer’s right to contest an inspection, which

6
  Source: The Eagle-Tribute, North Andover, MA, January 27, 2010 and April 13, 2010.
7
  Source: Keloland TV, Sioux Falls, SD, July 22, 2008.
8
  One violation with penalty of $17,500 was reduced at 60 percent. The other violations with penalty of
$12,200 were reduced by 20 percent.

                                                            OSHA Needs to Evaluate Penalty Reductions
                                                    9                    Report No. 02-10-201-10-105
                                                  U. S. Department of Labor – Office of Inspector General


could delay abatement and continue to expose employees to hazards. For an estimated
$31.8 million, 9 the justification for the reduction such as obtaining comprehensive
improvements to workplace safety and health was not documented.

OSHA policies authorize Area Directors to enter into settlement discussions to actively
negotiate the amount of penalty reductions, depending on the circumstances of the
case and what improvements in employee safety and health can be obtained in return.
Area Directors can change abatement dates, reclassify violations, modify or withdraw a
penalty, a citation or a citation item if the employer presents, during the informal
conference, evidence, which convinces the Area Director that the changes are justified.
Such evidence may include entering into a CSA, providing employee training of a
specified type and frequency, hiring a qualified safety and health consultant and
implementing their recommendations, effecting a comprehensive safety and health
program, and reporting new or other worksites to OSHA.

We found 60 percent of sampled inspections had informal settlements and lacked
justification for reducing the penalty. The majority of these inspections were Expedited
Informal Settlement Agreements (EISA), which reduced penalties by 30-60 percent.
OSHA established the EISA program as a pilot for less serious and non-fatality cases.
Draft policy was issued on September 4, 1996, offering reductions to employers in
exchange for a wavier of right to contest and abatement of violations; however, OSHA
has not formalized and evaluated the use of this tool. For the EISAs in our sample,
comprehensive/enhanced improvements to safety and health did not always occur in
exchange for penalty reductions. Additionally, the use of EISAs varied among sampled
Area Offices as only the Denver Area Office documented and tracked enhanced
abatement measures.

The following examples illustrate that informal settlement reductions do not necessarily
lead to effective abatement:

    •   Penn Builders had 4 inspections with 6 serious violations from January 2008 to
        March 2009. In the first inspection in Norristown, PA, the employer was cited for
        failure to provide fall protection. The Area Office Director offered an EISA, which
        granted an additional 30 percent penalty reduction of $630, in addition to,
        compliance officer reductions of $1,400. The employer certified that fall
        protection measures had been implemented. However, in the third inspection in
        Willow Grove, PA, the employer was cited for the same fall protection standard
        and, in the fourth inspection, a worker fell from scaffolding at a construction site
        in Pottstown, PA, and died. 10 For the 4 inspections, total penalties of $15,000
        were reduced by $10,070 to $4,930 of final penalties.

    •   Sorbara Construction of New York City, NY, was cited for 23 serious and repeat
        violations on 6 inspections from November 2007 to March 2009. On the first

9
  This is the unbiased point estimate. Based on sample results, we are 90 percent confident that errors
ranged between $14.9 million and $48.7 million. See Appendix B for sample methodology.
10
   Source: The Daily Local serving Chester County, PA, March, 14, 2009.

                                                            OSHA Needs to Evaluate Penalty Reductions
                                                   10                    Report No. 02-10-201-10-105
                                                 U. S. Department of Labor – Office of Inspector General


          inspection, the employer was given an informal settlement reduction on a
          violation related to a fall protection standard. In the next inspection, a fatality
          inspection where a worker fell 10 feet, 11 Sorbara Construction was cited for two
          fall protection standards and was given an informal settlement reduction of
          $11,250. For the 6 inspections, total penalties of $186,500 were reduced by
          $27,725 to $158,775 of final penalties.

In 2004, GAO found that OSHA’s National Office did not monitor and use available
regional audit results. GAO found files did not contain adequate notes regarding the
substance of informal conferences or information to justify the amount of penalty
reduction or changes to the classification. Furthermore, 18 OSHA internal reports from
2005 to 2008 identified areas of concern with case settlements such as not
documenting the justification for reductions, concessions and tangible employer
commitment to improve employee safety and health.

The following excerpts from OSHA internal reports illustrate that OSHA has not
effectively used the results for program improvement on a national level.

      •   From a June 2006 OSHA internal report, the following recommendation was
          made: “Settlement of Cases: Ensure that the ISA [Informal Settlement
          Agreement] evidences the concessions by the employer in exchange for penalty
          reductions or provides management's justification for not requiring concessions.”

      •   From a February 2008 OSHA internal report, the following recommendation was
          made regarding procedures for informal settlements: “Make significant reductions
          in penalties and changes in classification contingent upon tangible employer
          commitment to improve safety and health programs. Document these
          commitments in the case file.”

OSHA officials stated that a driving factor for reducing penalties was the employer’s
right to contest the inspection, which could delay abatement and continue to expose
employees to hazards; and potentially impact OSHA and SOL resources. OSHA
officials offered the Mine Safety and Health Administration as a comparison where
increased penalties resulted in a greater backlog of contested cases. Additionally,
inspections in contest that were not fully successful through department litigation could
result in monetary restitution for the contesting employer under the Equal Access to
Justice Act (EAJA). SOL officials provided the following case as an example:

      •   In 2003, Fabi Construction was cited for violations related to a garage collapse at
          an Atlantic City, New Jersey casino, where 4 died and 17 were injured. OSHA
          issued 6 citations with penalties of $98,500. After adjudication, 2 were dismissed
          and 1 was reclassified from willful to serious and overall penalties were reduced
          by 83 percent to $16,500. The U.S. Court of Appeals for the District of Columbia
          awarded Fabi $165,304 for legal defense costs under EAJA.

11
     Source: EHS Today, by Laura Walter, September 2, 2009.

                                                           OSHA Needs to Evaluate Penalty Reductions
                                                  11                    Report No. 02-10-201-10-105
                                            U. S. Department of Labor – Office of Inspector General


History Reductions were granted to employers with prior violations

History reductions totaled $34.2 million, and averaged $924 per inspection. OSHA
incorrectly granted history reductions because IMIS cannot effectively track inspection
information company-wide. OSHA directives allow employers to receive a reduction of
10 percent if not cited for any serious, willful, or repeat violations within the prior
3 years. However, 1,400 employers had violations within the prior 3 years and
erroneously received reductions of $1.1 million.

History determination is a manual search process, which can be affected by the
lack of quality data for history searches due to employer-related companies and
name variations. This is a repeat finding from a prior OIG audit report, Employers
With Reported Fatalities Were Not Always Properly Identified and Inspected
Under OSHA's Enhanced Enforcement Program, (Report No. 02-09-203-10-105,
Issued March 31, 2009).

The following are examples of employers that had an established history of violations
and incorrectly received history reductions:

     •   Willbros was cited for serious violations in 4 fatality inspections from
         November 2007 to March 2009, and incorrectly received history reductions
         totaling $2,500 in 2 inspections. Two fatalities occurred November 2007 in
         Deweyville, TX, and July 2008 in Carthage, TX, while workers were struck by
         exploding sections of pipeline. In March 2008, a worker was electrocuted while
         helping to move a section of pipe in Beaumont, MS. In March 2009, fire on a
         pipeline killed a worker and injured 6 others in Vacherie, LA. 12 For the 4
         inspections, total penalties of $37,000 were reduced by $5,800 to $31,200 of final
         penalties.

     •   Delek Refining of Tyler, TX, was cited for 47 serious violations in 3 inspections at
         the same worksite from February to November 2008 and was designated an EEP
         case. In the first inspection, Delek was cited for 12 violations relating to
         hazardous chemicals. In April 2008, they were again cited for violations related to
         hazardous chemicals. Three employees came in contact with hot oil while
         working on a coker unit and suffered burns requiring hospitalization 13. In
         November 2008, flammable vapors were ignited after a discharge line ruptured;
         two workers died from extensive burns and three others were injured. 14 For the
         3 inspections, total penalties of $321,000 were reduced by $32,100 for history
         reductions, including $27,000 on 34 violations of a similar standard. Final
         penalties were $288,900.



12
   Source: The Times-Picayune, March 11, 2009.
13
   Source: US Department of Energy, Energy Assurance Daily, April 25, 2008.
14
   Sources: OSHA Region 6 News Release, OSHA-09-502-DAL, May 19, 2009; KLTV 7 News, Tyler, TX,
November 21, 2008; and HAARETZ.com, Michael Rochvarger, August 12, 2008.

                                                      OSHA Needs to Evaluate Penalty Reductions
                                              12                   Report No. 02-10-201-10-105
                                                   U. S. Department of Labor – Office of Inspector General


Good Faith Reductions were given to employers with a history of violating a
similar standard

Good faith reductions for the audit period totaled $11.7 million, and the average
reduction per inspection was $769. Directives allow a reduction up to 25 percent to
recognize an employer’s effort to implement an effective safety and health management
system. Reductions were not allowable for repeat violations, but could be allowed for
violations of similar standards. The directives are not clear because violations of similar
standards do not have to be issued as repeat and therefore, the employer can receive
good faith reductions. There were 816 employers that received good faith reductions
totaling $0.6 million and violated a similar standard in 2 or more inspections indicating
the employers may not have implemented effective safety and health systems.

The following illustrates an employer that received good faith reductions and had a
history of violating the same standard:

      •   Con-Way Freight was cited for serious violations on 8 inspections from
          August 2007 to October 2008. In the second inspection in Manchester, NH, the
          employer was cited for willful and serious violations related to a death for
          “powered industrial truck” standards. The worker was crushed beneath the forklift
          he was operating after it went off the edge of a loading dock. The worker had not
          been using the forklift’s manufacturer required seatbelt and had not been
          properly trained on forklift safety. An OSHA official stated “Con-Way Freight
          repeatedly has refused to require forklift operators to use seatbelts even though
          another worker died in a similar accident in Dallas in 2003.” 15 On the sixth
          inspection in Belle, WV, OSHA granted Con-Way Freight a 25 percent good faith
          reduction of $2,375 and cited it again for violating a similar standard relating to
          powered industrial trucks. For the 8 inspections, total penalties of $150,500 were
          reduced by $17,032 ($14,532 by OSHA and $2,500 by judicial decisions) to
          $133,468 of final penalties.

Corporate-wide Settlement Agreements and Quick-Fix Reductions were minimally
used

OSHA did not use all tools at its disposal to effectively ensure company-wide safety and
health. CSAs were seldom used with three agreements in effect between July 2007 and
June 2009. Quick-fix reductions were used for 1,057, or 1 percent, of the 142,187
violations. With the limited use of these two programs, OSHA has not used all of its
available tools to ensure comprehensive abatement and prevent future injuries,
illnesses, and fatalities.

CSAs are formal agreements in writing for employers to abate cited hazards at all
workplaces under its control. OSHA’s criteria states that CSAs can result in significant
improvement in the safety and health of workers. Nevertheless, recent CSAs were
limited in scope and seldom used with only three employers participating in CSAs.

15
     Source: Occupational Safety and Health Online, April 9, 2008.

                                                              OSHA Needs to Evaluate Penalty Reductions
                                                     13                    Report No. 02-10-201-10-105
                                                    U. S. Department of Labor – Office of Inspector General


Quick-fix is an abatement incentive program meant to encourage employers to
immediately abate hazards and to prevent potential injuries, illness, and death. The
many qualifiers of the quick-fix policy limit OSHA’s use of this program. Penalty
reductions were permitted only in circumstances where OSHA has determined that the
serious violation was of low to medium gravity, 16 abatement was permanent and
substantial, and within 24 hours of the inspection. Violations related to fatalities and
serious injuries were also precluded. We found 74,217 low- and medium-gravity serious
violations that were potentially eligible for the reduction, where only 1,057 violations
received the quick-fix reduction.

Conclusion

OSHA has not effectively evaluated the use of $351.2 million of penalty reductions as
an incentive for employers to improve workplace safety and health. Moreover, up to
$127 million of penalty reductions may not have been appropriately granted. The use of
size reductions resulted in what amounts to an entitlement, as 98 percent of all cited
violations were reduced at the maximum allowable rate. OSHA’s information
management system cannot effectively track employers with a company-wide history of
violations, which affects OSHA’s ability to use available tools to ensure comprehensive
company-wide correction of violations. Small employers were granted the largest
reductions, averaging 78 percent of penalties, but generally had the worst safety and
health history with the most inspections, fatalities, and high-gravity serious (likely to
cause death) and repeat violations. However, OSHA had not determined the impact of
those reductions on workplace safety and health.

Based on the issues identified in this report, OSHA needs to revise its policies to ensure
penalty reductions are limited for employers with prior violations. By effectively using
penalty reductions as incentives for employers to improve workplace safety and health,
OSHA could potentially reduce the risk of future injuries, illnesses, and fatalities.

Recommendations

We recommend that the Assistant Secretary for Occupational Safety and Health commit
the necessary resources to:

Develop and Perform the Following Evaluations

1. Impact of penalty reductions as an incentive for employers to improve workplace
   safety and health.

2. Fully implement the requirements of MAP and institute changes based on its results
   to improve Nationwide OSHA program results.




16
     In 2009, OSHA modified its policies to include violations which were also of medium gravity.

                                                               OSHA Needs to Evaluate Penalty Reductions
                                                      14                    Report No. 02-10-201-10-105
                                            U. S. Department of Labor – Office of Inspector General


3. Determine if the EISA draft policy should be formalized and used, or eliminated. If
   used, the policy should contain clear guidance as to the specific improvements to
   workplace safety and health that would justify reductions.

4. Determine if the national quick-fix programs should be expanded or eliminated.

Improve Information Systems

5. Develop a module in the management information system to identify and monitor
   employers on a company-wide basis. Before granting reductions for employers with
   prior violations of the same standard, consider the following characteristics:

       a.   High-gravity serious and willful violations
       b.   Violations of the same standard, regardless of the “repeat” classification
       c.   Hospitalized injuries and fatalities
       d.   Delinquency of penalty payments
       e.   Parent and subsidiary ownership

6. Increase transparency and access by displaying on OSHA’s website the
   (a) gravity-based penalty amount and (b) amount of penalty reductions by type,
   including both compliance officer and post-citation reductions.

Revise and Implement Policies and Procedures

7. Revise directives to consider an employer’s overall character while coordinating
   reductions as a whole before individually applying the size, good faith, and informal
   settlement reductions.

8. Establish clear policy on limiting the size reduction for small employers and ensure
   this deterrent provision is used. This policy should address factors such as
   fatalities/hospitalized injuries, and multiple high-gravity, serious, repeat, or willful
   violations.

9. Provide formal training to Area Directors on the use and documentation
   requirements to justify informal settlement reductions according to directives.

10. Revise the policy of good faith reductions for employers with prior violations of the
    same standard, which were not classified as repeat, so that their status can be
    appropriately considered before granting penalty reductions.

11. Establish clear policy and guidance to determine when CSAs are to be used for
    employers with prior violations to ensure comprehensive and company-wide
    abatement of hazards.




                                                      OSHA Needs to Evaluate Penalty Reductions
                                             15                    Report No. 02-10-201-10-105
                                                 U. S. Department of Labor – Office of Inspector General


The total monetary impact of the report recommendations is as much as $127 million of
penalty reductions that may not have been appropriately granted. See table below for
the breakout of the monetary impact amounts and relationship to our recommendations:

      Amount
      (millions)   Recommendations                              Description
                                           Size reductions for small employers were granted at
        $94.1       1, 2, 5, 6, 7, and 8   the maximum allowable rate, and for all employers
                                           that exceeded the limits set forth in OSHA directives.
                                           Informal settlement reductions where the justification
        $31.8      1, 2, 3, 5, 6, 7, and 9
                                           for the reduction was not documented.
                                           Erroneous history reductions granted to employers
          $1.1         2, 5, 6, and 7
                                           that had prior inspections within a 3-year period.
       $127.0               Total Monetary Impact

We appreciate the cooperation and courtesies that OSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                           OSHA Needs to Evaluate Penalty Reductions
                                                   16                   Report No. 02-10-201-10-105
           U. S. Department of Labor – Office of Inspector General




Exhibits




                     OSHA Needs to Evaluate Penalty Reductions
            17                    Report No. 02-10-201-10-105
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
             18                    Report No. 02-10-201-10-105
                                                  U. S. Department of Labor – Office of Inspector General


                                                                                             Exhibit 1
Penalty Reductions by Employer Size

Dollar amounts shown in millions
                                                  Small         Mid-Size        Large        Very Large
                                   All          25 or less       26-100        101-250        Over 250
                                Employers       Employees      Employees      Employees      Employees
Gravity-Based Penalty             $523.5         $290.8          $112.9          $38.7         $81.1

Compliance Officer
Reductions
Size                              $224.0         $173.1            $43.2          $7.2            $.5
History                             34.2           22.0              7.0           2.2            3.0
Good Faith                          11.7            4.3              3.4           1.4            2.6
Quick-Fix 1                          0.2            0.1              0.1             *              *
Subtotal                          $270.1         $199.5            $53.7         $10.8           $6.1

Post Citation Reductions
OSHA Area Director                 $68.3           $24.6           $18.0              $8.4     $17.3
SOL/Judicial Decisions              12.8             2.9             3.0               1.4       5.5
Subtotal                           $81.1           $27.5           $21.0              $9.8     $22.8

Total Reductions                  $351.2         $227.0            $74.7         $20.6         $28.9

Final Penalty                     $172.3           $63.8           $38.2         $18.1         $52.2

Total Rate Reduced                 67%             78%            66%             53%           36%




1
    Quick-fix reductions for Large and Very Large Employers were less than $50,000.

                                                             OSHA Needs to Evaluate Penalty Reductions
                                                    19                    Report No. 02-10-201-10-105
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
             20                    Report No. 02-10-201-10-105
                                                               U. S. Department of Labor – Office of Inspector General


                                                                           Exhibit 2
    Employers with Serious Violations on Two or More Inspections and Fatalities

            Establishment Name and                Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.               Location(s)                     Numbers     Fatalities     Penalty      Penalty     Reductions Reduced

Small Employers (1-25 employees)
       TJC Construction                           310442710
   1                                              312120637
                                                                       1         $15,000      $2,250      $12,750        85%
          Dallas and Fort Worth, TX
       Garry Lewis Properties                     311521033
   2                                              311529457
                                                                       1          10,000       1,950        8,050        81%
          Baton Rouge and Livingston, LA
       Colony Insulation                          312098551
   3                                              312098809
                                                                       1          68,000      13,560       54,440        80%
          Falmouth and North Falmouth, MA
       RPM Recycling                              311270516
   4                                              311270979
                                                                       1          29,000       6,090       22,910        79%
          Wind Gap, PA
       Boston Power Crushing                      312589450
   5                                              312626336
                                                                       1          82,000      18,200       63,800        78%
          Westford, MA
       Dakota Pump & Control                      312320666
   6                                              312570773
                                                                       2          20,000       4,375       15,625        78%
          Aberdeen, SD
       Luis Martinez                              311957047
   7                                              311957864
                                                                       1          24,000       5,200       18,800        78%
          Bellaire and Webster, TX
                                                  310718630
       Building Keeper
   8                                              310721873            1          35,000       7,988       27,012        77%
          Woodbridge, NJ and Philadelphia, PA
                                                  311918643
       Execute Projects                           311957245
   9                                              312831605
                                                                       1          35,000       8,330       26,670        76%
          Houston and Spring, TX
       Markland Welding                           311596605
  10                                              312187495
                                                                       1          32,500       8,000       24,500        75%
          Salem and Salisbury, MA
       Gulf Coast Electric                        311962401
  11                                              311962807
                                                                       1          17,500       4,725       12,775        73%
          Beaumont, TX
       Romo Carpentry                             311212765
  12                                              311214761
                                                                       1          38,500      10,650       27,850        72%
          Bainville and Sidney, MT
       Vilgar Remodeling                          312378896
  13                                              312379175
                                                                       1          27,500       8,250       19,250        70%
          Oklahoma City, OK
       Frame To Finish                            311132617
  14                                              311134282
                                                                       1          34,500      10,550       23,950        69%
          Shelter Island, NY
       Tesmer Construction                        307044610
  15                                              312551534
                                                                       1          14,500       4,800        9,700        67%
          Galloway and Grantsburg, WI
       Crispin Aguilera                           309545697
  16                                              310445812
                                                                       1          15,000       5,200        9,800        65%
          Fort Worth and Irving, TX
                                                  311815526
       L.A Molina Construction
  17                                              311816391            1          39,500      13,750       25,750        65%
          Jacksonville and Winter Park, FL
                                                  312240914
       Rene Regalado                              311308241
  18                                              311314348
                                                                       1          17,500       6,050       11,450        65%
          Boerne and San Antonio, TX
       International Diving Services              309578367
  19                                              310447107
                                                                       1         166,000      65,900      100,100        60%
          Paris and The Colony, TX
       Omega Underground                          311083927
  20                                              312154313
                                                                       1           9,500       4,144        5,356        56%
          Coral Springs and Fort Lauderdale, FL
       Dixie Marine                               311085575
  21                                              312150055
                                                                       1          26,500      12,600       13,900        52%
         Miami, FL
       CKR Contractor                             307610816
  22                                              311224653
                                                                       1          26,500      13,100       13,400        51%
         New York City, NY
       Hutchison Contractors                      311034029
  23                                              311038665
                                                                       1          25,500      13,375       12,125        48%
         Macon, GA



                                                                            OSHA Needs to Evaluate Penalty Reductions
                                                                21                       Report No. 02-10-201-10-105
                                                              U. S. Department of Labor – Office of Inspector General



            Establishment Name and               Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.               Location(s)                    Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
       Top Hat Steel Erectors                    312697550
  24     Land O’ Lakes and                       313047771
                                                                      1          12,000       6,213        5,787        48%
         New Port Richey, FL
                                                 311349302
       DEC Management                            311493563
  25                                             311614085
                                                                      1          94,000      64,050       29,950        32%
         Niagara Falls, NY
                                                 311688402
                   Subtotals                                          26      $915,000     $319,300     $595,700
                   Average                                             1       $36,600      $12,772      $23,828        65%

Mid-Size Employers (26-100 employees)
       Liberty Building Products                 311109557
  26                                             312758774
                                                                      1          14,000       1,050       12,950        93%
         Grove Hill, AL
       Armstrong Steel Erectors                  309476869
  27                                             311500524
                                                                      1          31,000       4,025       26,975        87%
         Youngstown, OH and Osage, WV
       Rockwell American Mfg Company             309545226
  28                                             309545259
                                                                      1          21,500       2,750       18,750        87%
         Seagoville, TX
       System Services Broadband                 310253380
  29                                             310935457
                                                                      1          19,000       2,500       16,500        87%
         Lake Charles, LA and Branson, MO
                                                 311715643
       Maggio Roofing                            311770663
  30                                             311897656
                                                                      1          18,000       3,050       14,950        83%
         Washington, DC
                                                 312331945
                                                 309360436
       R-Hive Holding
  31                                             311402473            1          83,500      14,765       68,735        82%
         Kenosha, WI
                                                 311403026
       North East Linen                          310150248
  32                                             310150453
                                                                      2         193,500      36,625      156,875        81%
         Linden, NJ
       Southwest Sealants                        311315584
  33                                             312848518
                                                                      1          16,500       3,400       13,100        79%
         Fort Sam Houston, TX
       Campanella & Sons                         311852107
  34                                             311852149
                                                                      1          61,000      14,600       46,400        76%
         Gurnee, IL
       Charles Gluth & Son Roofers               311371108
  35                                             312723505
                                                                      1          46,000      11,300       34,700        75%
         Glen Ellyn and New Lenox, IL
       Dan D. Drilling                           311002638
  36                                             312379662
                                                                      1          20,500       5,050       15,450        75%
         Braman and Tonkawa, OK
       Hoogendoorn Construction                  311239800
  37     Brookings, Canton, and                  312320765            1          17,000       4,980       12,020        71%
         Sioux Falls, SD                         312570724
                                                 311049720
       Tec-Cast.                                 311049811
  38                                             311051155
                                                                      1          24,000       7,655       16,345        68%
         Carlstadt, NJ
                                                 311056105
       Boomer Well Service                       311006605
  39                                             312376676
                                                                      1          14,500       4,750        9,750        67%
         Cheyenne and Woodward, OK
       Mercer Well Service                       309545283
  40                                             309575561
                                                                      1           7,500       2,475        5,025        67%
         Kilgore and Longview, TX
                                                 311266233
       Penn Builders                             311268940
  41     Center Valley, Norristown, Pottstown,   311270854
                                                                      1          15,000       4,930       10,070        67%
         and Willow Grove, PA                    312488927
                                                 311310064
       Faulkner USA
  42                                             311312979            1          32,000      10,800       21,200        66%
         San Antonio, TX
                                                 312850134




                                                                           OSHA Needs to Evaluate Penalty Reductions
                                                               22                       Report No. 02-10-201-10-105
                                                          U. S. Department of Labor – Office of Inspector General



            Establishment Name and           Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.               Location(s)                Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
       Monarch                               311396931
  43                                         311402861
                                                                  1          22,500       7,750       14,750        66%
         Milwaukee, WI
       Venture Chemicals                     312386394
  44                                         312473622
                                                                  1          77,000      25,846       51,154        66%
         Seagraves, TX
       Recycling Services                    311590038
  45                                         312593809
                                                                  1          46,000      16,750       29,250        64%
         Chicago, IL and Claremont, NH
       Texas Erectors                        311242804
  46                                         312118599
                                                                  2          19,000       6,825       12,175        64%
         Brownsville and Dallas, TX
                                             309867331
       Scenic Ridge Construction             311267769
  47     Lancaster, Loganton, and            312289051
                                                                  1          83,000      30,835       52,165        63%
         Wyndmoor, PA                        312501992
       B & R Development                     309562080
  48                                         311945919
                                                                  1          31,000      11,880       19,120        62%
         Garland and Waco, TX
       Kusler Masonry                        311325161
  49                                         311679054
                                                                  1          23,500       8,890       14,610        62%
         Monroeville, PA and Granville, WV
                                             311369359
       Matthews Roofing Company              311376842
  50                                         312567621
                                                                  1         122,000      45,890       76,110        62%
         Chicago and Des Plaines, IL
                                             312596174
                                             311286256
                                             311286454
       New York Hoist
  51                                         311632103            1          49,500      19,675       29,825        60%
         New York City, NY                   311831523
                                             313236937
       Samuel Grossi & Sons                  311269385
  52                                         312972300
                                                                  1          15,000       6,150        8,850        59%
         Bensalem, PA
       WER Corporation                       112665260
  53                                         310845771
                                                                  1          19,000       7,745       11,255        59%
         Sinking Spring, PA
                                             311329726
       W & K Erection
  54                                         311329874            1          27,000      11,475       15,525        58%
         Canonsburg and Connellsville, PA
                                             311330484
       Sailer Stone & Stucco                 310992185
  55                                         310993142
                                                                  1          15,500       6,624        8,876        57%
         Riceboro and Savannah, GA
                                             311244776
       Swallow Construction
  56                                         311248538            1         241,000     106,500      134,500        56%
         Arlington Heights and Aurora, IL
                                             311264808
       Kirk's Framing                        310032479
  57                                         311819015
                                                                  1          15,500       6,950        8,550        55%
         Orange Park, FL
       Robert H. Kepler Masonry              112664669
  58                                         310839170
                                                                  1          18,500       8,250       10,250        55%
         Hanover and Middletown, PA
       W.M. Cramer Lumber Company            311679138
  59                                         311685200
                                                                  1          39,500      18,350       21,150        54%
         Marlinton, WV
       Demon Demolition                      310958533
  60                                         312523152
                                                                  1          44,000      21,000       23,000        52%
         Alpharetta and Duluth, GA
       Blue Ridge Construction               311056766
  61                                         311975080
                                                                  1          32,500      16,500       16,000        49%
         Oakland, NJ and Chester, NY
       C&N Electric, Power and Contracting   311130306
  62                                         311829162
                                                                  1          54,500      27,600       26,900        49%
         Paris and Waldron, AR
       D & D Industries                      308685841
  63                                         308685858
                                                                  1          30,500      16,300       14,200        47%
         Madison, NE
       Southern Construction Erectors        310253562
  64                                         311520381
                                                                  1           7,500       4,000        3,500        47%
         Baton Rouge and Ruston, LA
       Brownville Specialty Paper Products   310752415
  65                                         310752902
                                                                  1         204,500     116,250       88,250        43%
         Brownville, NY




                                                                       OSHA Needs to Evaluate Penalty Reductions
                                                           23                       Report No. 02-10-201-10-105
                                                          U. S. Department of Labor – Office of Inspector General



             Establishment Name and          Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.                Location(s)               Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
       E.E. Hood & Sons                      311309546
  66                                         311317523
                                                                  1           7,000       4,200        2,800        40%
         San Antonio and Uvalde, TX
                 Subtotals                                        43     $1,879,500    $686,940   $1,192,560
                   Average                                         1       $45,841      $16,755      $29,087        63%


Large Employers (100-250 employees)
                                             311088405
       Florida Transportation Service
  67                                         312145154            3         108,500       9,850       98,650        91%
         Fort Lauderdale, FL
                                             312146269
       HJD Capital Electric                  312848450
  68                                         312849672
                                                                  1          42,500       5,000       37,500        88%
         San Antonio, TX
       C.N. Construction                     311308530
  69     Austin, Fort Worth, and             311946586            2          25,000       5,600       19,400        78%
         Waxahachie, TX                      311946974
       A-1 Systems                           310445002
  70                                         311944557
                                                                  1          20,000       5,200       14,800        74%
         Fort Worth, TX
       D.W. White Construction               311612840
  71                                         312105638
                                                                  1          19,000       5,600       13,400        71%
         New Bedford and Peabody, MA
       U S Utility Contractor Company        309476984
  72     Delaware, OH and                    310481619
                                                                  1          25,000       7,200       17,800        71%
         Shepherdstown, WV
       Balfour Lumber                        310989199
  73                                         310991765
                                                                  1          31,000      10,375       20,625        67%
         Thomasville, GA
                                             311359954
       Pyco Industries
  74                                         311360010            1          37,500      12,325       25,175        67%
         Lubbock, TX
                                             312602337
       Superior Rigging & Erecting           310958046
  75                                         311036073
                                                                  1          19,000       6,538       12,462        66%
         West Point and Woodstock, GA
       Marine Express                        306194309
  76                                         306194614
                                                                  1          30,500      10,788       19,712        65%
         Mayaguez, PR
       Rochester Utility Contractors         311349427
  77                                         312368822
                                                                  1          19,500       7,105       12,395        64%
         Binghamton and Rochester, NY
       Trans-Acc                             311501498
  78                                         312816861
                                                                  1         170,000      62,168      107,832        63%
         Blue Ash, OH
       Premium Well Drilling                 310446828
  79                                         311969307
                                                                  2          11,000       4,400        6,600        60%
         Ballinger and Carrizo Springs, TX
       Save-On-Wall Company                  311584742
  80                                         312733082
                                                                  1           5,000       2,000        3,000        60%
         Lincoln, MA and Hudson, NH
       Mid South Lumber                      308776475
  81                                         308776673
                                                                  1          26,500      10,925       15,575        59%
         Meridian, MS
       ESA                                   311903371
  82                                         311903504
                                                                  1          16,500       7,350        9,150        55%
         Aspen, CO
                                             312364862
       IEW Construction Group                312364888
  83     Jersey City, Montague, and          312645641
                                                                  1          52,000      23,560       28,440        55%
         Wharton, NJ                         313159139
       Michael F. Ronca & Sons               310720016
  84                                         312500275
                                                                  1          19,200       8,715       10,485        55%
         Columbia and Phoenixville, PA
       Central Florida Equipment Rental      312148075
  85                                         312153596
                                                                  1          21,000       9,625       11,375        54%
         Fort Lauderdale and Homestead, FL
       All American Recycling Corporation    312186109
  86                                         312427099
                                                                  1          40,000      18,900       21,100        53%
         Jersey City, NJ




                                                                       OSHA Needs to Evaluate Penalty Reductions
                                                           24                       Report No. 02-10-201-10-105
                                                             U. S. Department of Labor – Office of Inspector General



            Establishment Name and              Inspection    No. of        Gravity       Final         Penalty     Rate
Seq.               Location(s)                   Numbers     Fatalities     Penalty      Penalty       Reductions Reduced
                                                311109706
       Master Boat Builders
  87                                            311969570            1          74,500      35,125         39,375      53%
         Coden, AL
                                                312283047
       Hi-Tech Electrical                       311087696
  88                                            313101438
                                                                     1          24,000      11,588         12,412      52%
          Miami and Miami Beach, FL
       United Waste Water Services              311675953
  89                                            312250954
                                                                     1          25,000      11,900         13,100      52%
          Cincinnati and Middletown, OH
                                                310779004
       Murfin Drilling
  90                                            310779012            1          12,500        6,268         6,232      50%
          Great Bend and Liberal, KS
                                                311787444
                                                311036578
       Nichiha USA.
  91                                            311038327            1          74,500      38,125         36,375      49%
          Macon, GA
                                                311038749
       K & B Machine Works                      310253190
  92                                            311528699
                                                                     1          16,000        8,290         7,710      48%
          Houma, LA
       Eagle Manufacturing Company              311683684
  93                                            311686042
                                                                     1          56,000      29,447         26,553      47%
          Wellsburg, WV
                                                310231493
       Advanced Concrete Systems
  94                                            310231709            1          21,500      11,506          9,994      46%
          Middleburg, PA
                                                310233085
       Robert C. Hatton                         311087365
  95                                            311087837
                                                                     1          27,500      15,181         12,319      45%
          South Bay, FL
       SER Construction Partners                311491591
  96                                            312538424
                                                                     1           7,500        4,475         3,025      40%
          Corpus Christi and Houston, TX
       Andrew Electric Company                  311033807
  97                                            311034284
                                                                     1          19,000      11,800          7,200      38%
          Decatur, GA
       Blount Seafood Corporation               312103492
  98                                            312105612
                                                                     1          16,500      10,325          6,175      37%
          Fall River, MA
       Imperial Industries                      122018062
  99                                            122018070
                                                                     1           6,500        4,235         2,265      35%
          Rothschild, WI
       A-1 Excavating                           307047191
 100     Merrimac, New Richmond, and            309843597            1         873,000     794,000         79,000      9%
         Wausau, WI                             310770953
       Scalise Industries                       311330120
 101                                            311330468
                                                                     1          54,000      51,800          2,200      4%
          Braddock and Pittsburgh, PA
                  Subtotals                                          39     $2,046,700   $1,277,289      $769,411
                  Average                                             1       $58,477      $36,494        $21,983      38%


Very Large Employers (over 250 employees)
       G. A. West & Company                     310756606
 102                                            311612295
                                                                     1          19,500             -       19,500   100%
          Chunchula and Perdue Hill, AL
       Quanta Utility Services                  310445234
 103                                            310447263
                                                                     1          25,000             -       25,000   100%
          Hurst and North Richland Hills, TX
                                                311770572
       Miller & Long Concrete Construction
 104                                            312331747            1          10,000        1,219         8,781      88%
          Washington, DC
                                                312881956
       Brasfield & Gorrie                       310960950
 105                                            311731129
                                                                     1          34,500        4,500        30,000      87%
          Tuscaloosa, AL and Fayetteville, GA
       Garco Construction                       309093573
 106     Coeur D Alene, ID; Great Falls, MT;    311212617            1          27,500        4,750        22,750      83%
         and Oak Harbor, WA                     311576946
       Rheem Heating & Cooling                  311130363
 107                                            311130371
                                                                     1           8,500        1,500         7,000      82%
          Fort Smith, AR




                                                                          OSHA Needs to Evaluate Penalty Reductions
                                                              25                       Report No. 02-10-201-10-105
                                                                U. S. Department of Labor – Office of Inspector General



            Establishment Name and                 Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.               Location(s)                      Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
                                                   310935499
       Wireco Worldgroup
 108                                               310938659            1          28,500       5,250       23,250        82%
         Sedalia and St Joseph, MO
                                                   312216930
       Blommer Chocolate Company                   311374417
 109                                               312591571
                                                                        1          91,000      17,500       73,500        81%
         Chicago, IL
                                                   112520739
       Lewis Tree Service                          311335905
 110     Leesburg, FL; Mount Vernon, ME; and       312948847
                                                                        1          21,000       4,500       16,500        79%
         New Richmond, OH                          313396681
                                                   310763610
       Milwaukee Valve Company
 111                                               310765011            1          32,500       8,150       24,350        75%
         New Berlin and Prairie du Sac, WI
                                                   311402119
                                                   308311760
       Nabors Drilling USA
 112                                               311215966            1          19,500       5,000       14,500        74%
         Sidney, MT and Ridge, TX
                                                   311899249
       Propex                                      310957949
 113                                               312770613
                                                                        1          24,500       6,375       18,125        74%
         Ringgold, GA
       United Forming                              311309165
 114                                               311365092
                                                                        2          45,500      12,000       33,500        74%
         Orange Beach, AL and Austin, TX
                                                   112522107
       Verizon                                     307637322
         Plymouth, MA; Portland, ME;               310675780
 115                                               310718564
                                                                        2          49,500      14,250       35,250        71%
         Lynbrook, NY; Miller Place, NY;
         Malvern, PA; and Philadelphia, PA         310721311
                                                   311136261
       Alton Steel                                 309291524
 116                                               309292282
                                                                        1          19,500       5,910       13,590        70%
         Alton, IL
       American Electric Power                     311407845
 117                                               311833958
                                                                        1           5,000       1,488        3,512        70%
         Brilliant, OH and Sarita, TX
       Ceres Marine Terminals                      309729002
 118                                               310990510
                                                                        1           9,500       2,844        6,656        70%
         Garden City, GA and Portsmouth, VA
       Clarkwestern Building Systems               311038913
 119                                               311759526
                                                                        1          15,000       4,850       10,150        68%
         Bristol, CT and Pendergrass, GA
       Oscar Renda Contracting                     310444989
 120     North Little Ro, AR; Arlington, TX; and   311308167            3          94,500      30,000       64,500        68%
         Cedar Park, TX                            311364673
                                                   308006824
       KMA Manufacturing
 121                                               311324917            1         199,000      65,000      134,000        67%
         Beaver, PA
                                                   311327985
       West Virginia Paving                        309476661
 122                                               311679633
                                                                        1           6,000       2,000        4,000        67%
         Pax and Winfield, WV
       Swan Oil Field Services                     311945109
 123                                               311947303
                                                                        1          12,000       4,075        7,925        66%
         Morgan Mill and Rhome, TX
       Welded Construction                         309448801
 124                                               310765243
                                                                        1          23,500       8,488       15,012        64%
         Toledo, OH and Columbus, WI
                                                   311130751
       Capstar Drilling
 125                                               312238587            2          49,500      18,394       31,106        63%
         Notrees and Odessa, TX
                                                   312602345
       Gulf Stream Marine                          311472773
 126                                               311719488
                                                                        1          18,500       7,000       11,500        62%
         Corpus Christi and Houston, TX
       Bender Shipbuilding & Repair                311969968
 127                                               312161235
                                                                        1          52,500      21,000       31,500        60%
         Mobile, AL
                                                   312102429
       S & F Concrete Contractors
 128                                               312105703            1          17,000       7,000       10,000        59%
         Fairhaven, Taunton, and Weston, MA
                                                   313554008




                                                                             OSHA Needs to Evaluate Penalty Reductions
                                                                 26                       Report No. 02-10-201-10-105
                                                             U. S. Department of Labor – Office of Inspector General



            Establishment Name and              Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.               Location(s)                   Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
                                                311048318
                                                311049647
                                                311052021
       Creamer-Sanzari A Joint Venture          311054233
 129     East Rutherford, NJ; Hackensack, NJ;
                                                311056295
                                                                     2          43,000      19,275       23,725        55%
         Lodi, NJ; and New York City, NY
                                                311473789
                                                312424658
                                                313236911
       Keystone Consolidated Industries         310799945
 130                                            310802376
                                                                     1          25,000      11,150       13,850        55%
         Bartonville and Peoria, IL
       National Envelope                        310627229
 131                                            311914782
                                                                     1          10,500       4,757        5,743        55%
         Worcester, MA and Union, NJ
       A D M Milling                            311465157
 132     Abilene, KS; St Louis, MO; and         312801111            1          22,500      10,250       12,250        54%
         Lincoln, NE                            313111742
                                                310264304
       Saw Pipes USA
 133                                            310265236            1         274,000     128,250      145,750        53%
         Baytown, TX
                                                311960736
       Wastequip Manufacturing                  312379332
 134                                            312870330
                                                                     1          13,000       6,100        6,900        53%
         Durant, OK and Beeville, TX
       ABC Professional Tree Services           109178277
 135     East Haddam, CT and                    311815617
                                                                     1          37,500      18,000       19,500        52%
         Orange Park, FL
                                                312335532
       Delphi Automotive Systems
 136                                            312335623            1           9,500       4,536        4,964        52%
         Dayton and Vandalia, OH
                                                312816986
                                                310148523
                                                310150321
       Temple-Inland                            311243471
         Northlake, IL; Kansas City, KS;
                                                311243711
 137     Fenton, MO; Milltown, NJ;              311310122
                                                                     1          95,500      45,440       50,060        52%
         Spotswood, NJ; Middletown, OH; and     311551824
         San Antonio, TX
                                                311784789
                                                311966204
                                                307502336
       Peak Oilfield Service                    307502500
 138     Kenai, AK; Nikiski, AK; and            307503821            1          19,000       9,325        9,675        51%
         Parshall, ND                           307503839
                                                313043077
       Arcelor Mittal                           112984919
 139                                            313365918
                                                                     1          17,000       8,500        8,500        50%
         Blasdell, NY and Steelton, PA
       Mckinney Drilling                        311888010
 140     Atlanta, GA; Port Arthur, TX; and      311962138            1          22,000      10,969       11,031        50%
         South Padre Island, TX                 312522956
       Team Industrial Services                 311523906
 141                                            312222896
                                                                     2          19,000       9,500        9,500        50%
         Lake Charles, LA and Weston, MO
       AK Steel Corporation                     311832703
 142                                            313110728
                                                                     1          14,500       7,500        7,000        48%
         Coshocton and Middletown, OH
       Albany International Corporation         309841393
 143     Montgomery, AL; Homer, NY; and         310753827            1          47,000      24,633       22,367        48%
         Menasha, WI                            311612261
                                                312145170
       West County Power Partners
 144                                            312149008            1          22,500      11,650       10,850        48%
         Loxahatchee, FL
                                                312149404
       Cactus Drilling Company                  311001325
 145                                            312238710
                                                                     1          43,000      22,825       20,175        47%
         Sentinel, OK and Pyote, TX




                                                                          OSHA Needs to Evaluate Penalty Reductions
                                                              27                       Report No. 02-10-201-10-105
                                                                U. S. Department of Labor – Office of Inspector General



            Establishment Name and                 Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.               Location(s)                      Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
                                                   310034111
       Supervalu                                   310841085
 146     Anniston, AL; Quincy, FL; Seaville, NJ;   312127368
                                                                        1          19,000       9,997        9,003        47%
         and Denver, PA                            312767437
       Golden Peanut Company                       310991823
 147                                               311566194
                                                                        1          20,000      10,766        9,234        46%
         Ashburn, GA and Seagraves, TX
                                                   122394059
                                                   306193681
                                                   306193723
                                                   306194465
                                                   306194549
                                                   307045401
                                                   308686583
                                                   310751821
                                                   311039028
                                                   311041834
       Pepsi                                       311089940
         Windsor, CT; Holiday, FL;                 311178636
         Pompano Beach, FL;                        311213540
         St Petersburg, FL; Tampa, FL;             311279012
         Atlanta, GA; Bogart, GA; Martinez, GA;    311279129
         Chicago, IL; Portland, ME;
                                                   311327456
         Sedalia, MO; Billings, MT;                311423644
         Alliance, NE; Omaha, NE;
 148                                               311465918            1         178,400      96,205       82,195        46%
         Manchester, NH; Somerset, NJ;             311548507
         Whippany, NJ; Mount Vernon, NY;           311565857
         Rochester, NY; Syracuse, NY;              311584395
         Utica, NY; Watertown, NY; Lima, OH;       311606271
         Twinsburg, OH; Wadsworth, OH;             311756761
         Mckees Rocks, PA; Rosenberg, TX;          311916522
         St. Croix, VI; St. Thomas, VI;            311960876
         Eau Claire, WI; and Milwaukee, WI         312216898
                                                   312284441
                                                   312367360
                                                   312367923
                                                   312367949
                                                   312550189
                                                   312595044
                                                   312645625
                                                   312770605
                                                   313069130
                                                   311242481
       Perini Corporation
 149                                               311280135            1          20,000      10,800        9,200        46%
         Newark, NJ and Nyack, NY
                                                   311280143
       Appleton Papers Incorporated                309842748
 150                                               311323273
                                                                        1          17,000       9,300        7,700        45%
         Roaring Spring, PA and Appleton, WI
                                                   307044958
       Menard
 151                                               307045823            1          16,500       9,000        7,500        45%
         Scottsbluff, NE and Eau Claire, WI
                                                   311466221
                                                   306961137
       Century Steel Erectors                      311327035
 152     Ambridge, PA; Johnstown, PA;              311329155
                                                                        1          20,500      11,510        8,990        44%
         Mars, PA; and Kingwood, WV                311686034
       Hubbard Feeds                               310780648
 153                                               311464325
                                                                        1           9,500       5,300        4,200        44%
         Beloit, KS and Columbus, NE
                                                   308686500
                                                   310751219
       Parker Hannifin Corporation                 310751227
         Kittery, ME; Washington, MO;
 154                                               311413462            1          60,000      33,710       26,290        44%
         Olive Branch, MS; Alliance, NE;           311497598
         Clyde, NY; and Lewisburg, OH              311912943
                                                   312752736




                                                                             OSHA Needs to Evaluate Penalty Reductions
                                                                 28                       Report No. 02-10-201-10-105
                                                               U. S. Department of Labor – Office of Inspector General



             Establishment Name and               Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.                Location(s)                    Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
       Unit Drilling                              311003677
 155      Bessie, OK; Sharon, OK; and             311005151            1          16,000       9,000        7,000        44%
          Wheeler, TX                             312238629
                                                  310472410
                                                  310999354
                                                  311215701
                                                  311310825
                                                  311312524
       Patterson-UTI Drilling                     311312599
         Gilcrest, CO; Kaplan, LA; Sidney, MT;    311528400
         Lehigh, OK; Canadian, TX;                311884001
 156     Chapman Ranch, TX; Fort Worth, TX;
                                                  311945000
                                                                       1          61,900      35,570       26,330        43%
         Hearne, TX; Lamesa, TX; Midland, TX;     312155518
         Portland, TX; Robstown, TX; and          312155575
         Sonora, TX
                                                  312155732
                                                  312238736
                                                  312481369
                                                  312538044
                                                  312538374
       Virginia International Terminal            309729465
 157                                              309730349
                                                                       1          28,000      16,100       11,900        43%
          Norfolk, VA
       Petro-Hunt                                 311216352
 158                                              312966104
                                                                       1          17,000       9,900        7,100        42%
          Lambert, MT and Ray, ND
       Weyerhaeuser Company                       310254487
 159     Natchitoches, LA; Mount Vernon, OH;      311835334            1          16,500       9,528        6,972        42%
         and Idabel, OK                           312379381
       Brayman Construction Company               309470847
 160                                              309478295
                                                                       1          82,000      48,000       34,000        41%
          Dunbar and South Charleston, WV
       Daniel Marr and Son                        312100563
 161                                              312101868
                                                                       1          35,000      20,500       14,500        41%
          Boston and Quincy, MA
       Kreilkamp Trucking                         122018500
 162                                              311920425
                                                                       1           7,500       4,407        3,093        41%
          Edison, NJ and Appleton, WI
       Pike Electric                              310479985
 163      Mobile, AL; Glenford, OH; and           311944847            2         133,000      80,000       53,000        40%
          West, TX                                311969588
       Quala Systems                              310986997
 164                                              310992482
                                                                       1          51,500      31,000       20,500        40%
          Garden City, GA
                                                  309289429
                                                  309291557
       Gilster Mary Lee Corporation               309292340
          Centralia, IL; Chester, IL;
 165                                              310934914            1          42,500      26,201       16,299        38%
          Momence, IL; Steeleville, IL;
                                                  311195960
          Jasper, MO; and Perryville, MO
                                                  312596091
                                                  313012262
       Jeld-Wen                                   309548030
 166     Pottsville, PA; Sulphur Springs, TX;     311678833            1          13,000       8,080        4,920        38%
         and Craigsville, WV                      312289770
       Pacific Steel & Recycling                  311575351
 167                                              311581748
                                                                       1          19,000      12,000        7,000        37%
          Pocatello and Twin Falls, ID
       S.W. Jack Drilling Company                 311678676
 168                                              311685291
                                                                       2          47,500      30,000       17,500        37%
          Liberty and Rock Cave, WV
                                                  306193632
       Sherwin-Williams Company                   310160429
         Orlando, FL; Chicago, IL; Andover, KS;   310229851
 169                                              310778154
                                                                       2          28,000      17,620       10,380        37%
         Carbondale, PA; Providence, RI; and
         St. Thomas, VI                           311369979
                                                  312830243




                                                                            OSHA Needs to Evaluate Penalty Reductions
                                                                29                       Report No. 02-10-201-10-105
                                                             U. S. Department of Labor – Office of Inspector General



            Establishment Name and              Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.               Location(s)                   Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
                                                311334502
                                                311472781
                                                311497697
       IFCO Systems North America               311839120
         Kansas City, MO; St Louis, MO;
 170                                            311979124            1         137,700      88,780       48,920        36%
         Montgomery, NY; Columbus, OH; and
                                                312217169
         Mcallen, TX
                                                312217219
                                                312401987
                                                312884356
                                                309971976
       J. R. Simplot Company                    311575930
 171                                            311577605
                                                                     1          59,000      37,550       21,450        36%
         Aberdeen and Pocatello, ID
                                                311577613
       Commercial Concrete Homes                311084347
 172                                            311766760
                                                                     1          17,000      11,250        5,750        34%
         Fort Myers and Naples, FL
       Difama Concrete                          311632285
 173                                            312497886
                                                                     2         100,500      67,000       33,500        33%
         New York City, NY
       Mosser Construction                      309448389
 174                                            311602478
                                                                     1          15,000      10,000        5,000        33%
         Toledo, OH
       Rotonics Manufacturing                   310471677
 175     Commerce City, CO; Bartow, FL; and     311573307            1          45,500      30,615       14,885        33%
         Caldwell, ID                           311730618
                                                307047423
                                                310988134
       Georgia Pacific                          310990205
         Monroeville, AL; Ricon, GA;            311001184
 176                                            311031504
                                                                     2          74,000      50,475       23,525        32%
         Duck Hill, MS; Mogadore, OH;
         Muskogee, OK; and Phillips, WI         311412852
                                                311412894
                                                312868128
                                                312225881
       The Lane Construction Corporation        312633431
 177     Lakeland, FL; Bangor, ME;              312697576
                                                                     1          34,000      23,015       10,985        32%
         Lincoln, ME; and Avella, PA            313360646
                                                311312755
       Saia Motor Freight Line                  311444228
         Birmingham, AL; Henderson, CO;
 178                                            311527881            1          35,500      24,825       10,675        30%
         Broussard, LA; West Chester, OH; and   311909378
         Kerrville, TX                          312335458
       Dura-Bond Pipe                           112665252
 179                                            113742852
                                                                     1          57,000      40,500       16,500        29%
         Steelton, PA
                                                310447495
       S.J. Louis Construction of Texas
 180                                            312847908            1          22,500      16,175        6,325        28%
         Carrollton and San Antonio, TX
                                                312849029
                                                311162226
                                                311333215
       Timken
 181                                            311474456            1          74,000      53,250       20,750        28%
         Canton, OH                             312934086
                                                312965981
       Gene D. Yost & Son                       309341840
 182     Jefferson, PA; Union City, PA; and     311323075            1          98,000      71,575       26,425        27%
         Hurricane, WV                          311677959
                                                311883953
       C. C. Forbes Company
 183                                            312481443            1          10,000       7,400        2,600        26%
         Driscoll, Pyote, and Robstown, TX
                                                312481484
       Norfolk Southern Railway Company         309730729
 184                                            311501035
                                                                     1          29,500      22,190        7,310        25%
         Portsmouth, OH and Norfolk, VA
       United Rentals                           309558245
 185                                            313369092
                                                                     1           3,500       2,625         875         25%
         Concord, NH and Fairmont, WV



                                                                          OSHA Needs to Evaluate Penalty Reductions
                                                              30                       Report No. 02-10-201-10-105
                                                               U. S. Department of Labor – Office of Inspector General



            Establishment Name and                Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.               Location(s)                     Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
       List Industries                            312149941
 186                                              312284227
                                                                       1          59,500      45,325       14,175        24%
          Apopka and Deerfield Beach, FL
       Royal American Construction                310033402
 187      Panama City and                         310035209
                                                                       1          11,300       8,550        2,750        24%
          Panama City Beach, FL
       Wayne Farms                                311411680
 188                                              311969877
                                                                       1          27,000      20,600        6,400        24%
          Union Springs, AL and Ovett, MS
       Greenheck Fan Corporation                  122018435
 189                                              309839041
                                                                       1          12,500       9,600        2,900        23%
          Schofield, WI
       Offshore Specialty Fabricators             311242556
 190                                              311520977
                                                                       1          35,000      27,000        8,000        23%
          Houma, LA and Ingleside, TX
       APM Terminals                              310990635
 191      Oakland, CA; Garden City, GA; and       311959563            1          11,000       8,594        2,406        22%
          La Porte, TX                            312245095
       Allied Systems                             311832620
 192     Rome, GA; Marysville, OH; and            311944953            1          21,500      16,938        4,562        21%
         Midlothian, TX                           312770118
                                                  310594635
                                                  312136153
       Pioneer Natural Resources USA              312139058
 193     Trinidad, CO; Weston, CO; Midkiff, TX;   312139066            1          46,000      36,250        9,750        21%
         and Midland, TX                          312140346
                                                  312238959
                                                  312473523
                                                  312085400
       Mass. Institute of Technology
 194                                              312733348            1          46,500      37,500        9,000        19%
          Cambridge, MA
                                                  313425035
                                                  310769575
       Mas Tec North America                      310992425
 195      Colorado Springs, CO; Coolidge, GA;     312138100
                                                                       1         172,500     142,200       30,300        18%
         Imperial, MO; and Madison, WI            312884166
       National Coal County                       312376544
 196                                              312380074
                                                                       1          59,500      48,550       10,950        18%
          Cheyenne and Loco, OK
       Ensign United States Drilling              311003602
 197                                              311908628
                                                                       1          12,000      10,000        2,000        17%
          Gill, CO and Eufaula, OK
       Weatherford International                  312141153
 198     Trinidad, CO; Alex, OK; and              312376684            1          18,500      15,300        3,200        17%
         Cheyenne, OK                             312379035
       Turner Industries Group                    309545622
 199                                              310263868
                                                                       1           8,500       7,125        1,375        16%
          Orange and Paris, TX
                                                  311730675
                                                  312328263
       Walt Disney World                          312735236
 200                                              312735368
                                                                       4          49,500      41,375        8,125        16%
          Lake Buena Vista and Orlando, FL
                                                  312834708
                                                  313047987
                                                  311413728
       Willbros                                   311491815
 201     Vacherie, LA; Beaumont, MS;              311529960
                                                                       4          37,000      31,200        5,800        16%
         Carthage, TX; and Deweyville, TX         312117534
                                                  311441406
                                                  312209802
       Sorbara Construction                       312321847
 202                                              312321979
                                                                       1         186,500     158,775       27,725        15%
          New York City, NY
                                                  312424757
                                                  313041386
       Community Asphalt                          311082713
 203                                              311087241
                                                                       1          27,000      23,250        3,750        14%
          Fort Lauderdale and Hialeah, FL



                                                                            OSHA Needs to Evaluate Penalty Reductions
                                                                31                       Report No. 02-10-201-10-105
                                                            U. S. Department of Labor – Office of Inspector General



            Establishment Name and             Inspection    No. of        Gravity       Final       Penalty     Rate
Seq.               Location(s)                  Numbers     Fatalities     Penalty      Penalty     Reductions Reduced
                                               311130546
       Adobe Drilling Services
 204                                           312238801            1          56,500      50,000        6,500        12%
         Midland, Odessa, and Tarzan, TX
                                               312238835
                                               312222839
       International Paper Company             312503337
 205     Augusta, GA; North Kansas City, MO;   312524754            1         129,000     113,680       15,320        12%
         and Lancaster, PA                     312525272
                                               312525280
                                               112896626
                                               122383409
       Con-Way Freight                         309470946
         Shrewsbury, MA; Manchester, NH;       309559250
 206     Tonawanda, NY; Parma, OH;             310625884
                                                                    1         150,500     133,468       17,032        11%
         Wilkes-Barre, PA; York, PA;
                                               311162390
         Franklin, WI; and Belle, WV           311493621
                                               312287527
       G.M. Fabricators                        311969232
 207                                           312870355
                                                                    1          82,500      73,125        9,375        11%
         Ingleside, TX
       Smurfit Stone Container Enterprises     310770342
 208     Fernandina Beach, FL;                 311820625            1          30,500      27,225        3,275        11%
         North Chicago, IL; and Beloit, WI     313005514
                                               301415493
       American Bridge Company                 301416160
 209     Grand Rivers, KY; Newport, RI; and    309730554
                                                                    1         109,000      97,603       11,397        10%
         Chincoteague, VA
                                               312340649
                                               310469259
       Cyclone Drilling                        311214753
         Parachute, CO; Rifle, CO;
 210                                           311907448            1          39,500      35,550        3,950        10%
         Lambert, MT; Marmarth, ND; and
                                               312174360
         Stanley, ND                           313043192
                                               309573350
       Delek Refining
 211                                           309578219            2         321,000     288,900       32,100        10%
         Tyler, TX
                                               312119340
       Packaging Corporation of America        309843001
 212     Liverpool, NY; Ashland, OH; and       311604268            3          32,500      29,112        3,388        10%
         Tomahawk, WI                          312366834
       Sulzer Metco Coating                    311685663
 213                                           311685762
                                                                    1          59,500      53,550        5,950        10%
         Barboursville, WV
                                               310471875
       JBS Swift And Company
 214                                           311908982            1          53,000      48,290        4,710        9%
         Greeley, CO
                                               311909568
                                               310265020
       Allied Waste Industries                 311962377
 215     Buffalo, NY; Clarence, NY; and        312241151
                                                                    2          47,000      43,600        3,400        7%
         Houston, TX                           312241482
                                               310467808
       Halliburton                             311307797
 216     Durango, CO; Fort Lupton, CO;         311907836
                                                                    3          40,500      37,560        2,940        7%
         Rifle, CO; and Midland, TX            312138761
       Asplundh Tree Expert                    311041917
 217     Sandersville, GA; Dixon, IL; and      311245088            2          35,500      33,250        2,250        6%
         Austin, TX                            311314959
       JMEG                                    311945083
 218                                           311949259
                                                                    1          10,000       9,500         500         5%
         Arlington, TX
       Vaughn Construction                     311962583
 219                                           312321417
                                                                    1          12,000      11,500         500         4%
         Houston, TX




                                                                         OSHA Needs to Evaluate Penalty Reductions
                                                             32                       Report No. 02-10-201-10-105
                                                             U. S. Department of Labor – Office of Inspector General



             Establishment Name and             Inspection    No. of        Gravity        Final         Penalty     Rate
Seq.                Location(s)                  Numbers     Fatalities     Penalty       Penalty       Reductions Reduced
                                                308327634
                                                310987458
        SSA Cooper / SSA Terminals              310989280
          Oakland, CA; Brunswick, GA;
 220                                            310990049            3          88,500       86,000          2,500     3%
          Savannah, GA; Wilmington, NC; and
                                                311093744
          Charleston, SC
                                                311318158
                                                312422264
        Boh Bros Construction                   311528012
 221                                            311528889
                                                                     2          22,500       22,125           375      2%
          Slidell, LA
        DCS Sanitation Management               310935754
 222                                            311460281
                                                                     1         122,000      119,500          2,500     2%
          Springfield, MO and Lexington, NE
        Deep South Crane and Rigging            311525554
 223                                            311958565
                                                                     4          72,000       70,500          1,500     2%
          Garyville, LA and Houston, TX
                                                310755327
        Crucible Specialty Metals
 224                                            312367576            1         254,200      252,450          1,750     1%
          Syracuse, NY
                                                312368194
        BP Products North America               309449106
 225                                            310266085
                                                                     1          30,000       30,000              -     0%
          Oregon, OH and Texas City, TX
        Leed Energy Services                    310468103
 226                                            310471776
                                                                     1          10,000       10,000              -     0%
          Gilcrest and La Salle, CO
                                     1
        Imperial Sugar Company                  310988712
 227                                            311522858
                                                                    12                *             *            *       *
          Port Wentworth, GA and Gramercy, LA
                   Subtotal                                        168      $6,114,000    $4,092,042    $2,021,958
                    Average                                           1       $48,912       $32,736        $16,176     33%


All 227 Employers with Serious Violations on Two or More Inspections and Fatalities
                        Total1                                     276 $10,955,200        $6,375,571    $4,579,629
                                 1
                   Average                                            1       $48,474       $28,210        $20,264     42%




    1
     Imperial Sugar Company penalty amounts of $8.8 million were excluded so as not to distort overall
    averages.

                                                                          OSHA Needs to Evaluate Penalty Reductions
                                                              33                       Report No. 02-10-201-10-105
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
             34                    Report No. 02-10-201-10-105
             U. S. Department of Labor – Office of Inspector General




Appendices




                       OSHA Needs to Evaluate Penalty Reductions
              35                    Report No. 02-10-201-10-105
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
             36                    Report No. 02-10-201-10-105
                                            U. S. Department of Labor – Office of Inspector General


                                                                                    Appendix A
Background

The purpose of the OSH Act of 1970 was to assure so far as possible that American
workers have safe and healthful working conditions by encouraging employers to
reduce hazards and institute safety and health programs. When unsafe conditions are
identified, OSHA inspectors issue citations with penalties. In setting penalty amounts,
OSHA is required to give consideration to the gravity of violations, and employer’s size,
good faith, and history. While penalty reductions are not mandated by the Act, OSHA
policies established these reductions as an incentive to abate violations voluntarily and
resulted in significantly reduced final penalties. OSHA officials maintained that reduced
penalties would lead to quicker and more comprehensive abatement.

OSHA’s application of the penalty reductions has been the subject of OIG and GAO
reports for more than 20 years. Excerpts from prominent OIG and GAO reports are
included below.

From a 1987 OIG report, Targeting Employers with Fatalities (OIG Report No. 02-87-
012-10-105, March 10, 1987), a review of selected OSHA case files disclosed a
particular contractor had 19 known fatalities and 30 associated violations nationwide
between 1975 and 1984. OSHA national data revealed at least 20 other employers with
similar or worse histories of fatalities. OSHA did not identify and target for inspection
employers with significant numbers of fatalities, and use its nationwide fatality
inspection data in citing and penalizing repeat violations.

In another 1987 OIG report, OSHA Enforcement Activities (OIG Report No. 02-86-028-
10-105, September 11, 1987), OIG identified internal control weaknesses as well as
instances of noncompliance with OSHA policies and procedures in the following area:
Management Control Systems, Abatement of Hazards, Targeting and Scheduling
Inspections, and Penalty Assessments. Such problems, if not corrected, could seriously
impair the agency’s effectiveness in discharging its duties.

In May 1991 GAO report, OSHA: OSHA Policy Changes Needed to Confirm That
Employers Abate Serious Hazards (GAO/HRD-91-35), OSHA treats construction
inspections like its other inspections. It cites the employer for violations and requires the
employer to correct the problem. However, once the construction site is no longer in
operation OSHA considers the hazard abated. After work has ended at the inspected
site, OSHA requires no further abatement effort by the contractor even if the cause of
the problem — such as untrained personnel, defective equipment, or inadequate
procedures for performing work safely — could continue at another worksite if the same
personnel, equipment, and procedures are used again. OSHA accepts completion of
work at a site as a form of abatement and closes the case.

In April 1992, GAO issued a report titled Penalties for Violations Are Well Below
Maximum Allowable Penalties (GAO/HRD-92-48) to the Subcommittee on Health and
Safety, Committee on Education and Labor, House of Representatives. One of the


                                                      OSHA Needs to Evaluate Penalty Reductions
                                             37                    Report No. 02-10-201-10-105
                                          U. S. Department of Labor – Office of Inspector General


objectives was to determine “… if OSHA’s policy of reducing penalties to avoid litigation
achieved its goal of quicker and more comprehensive abatement of cited hazards.” The
report goes on to state that: “OSHA officials believe reducing penalties leads to both
quicker and more comprehensive abatement. They told us that reducing penalties
makes employers more likely to accept the penalty rather than contest it or to continue
the appeal if they have already contested it. “

In August 2004, GAO issued a report titled OSHA’s Oversight of Its Civil Penalty
Determination and Violation Abatement Processes Has Limitations (GAO-04-920),
which recommended that OSHA ensure its regional offices complete internal monitoring
in accordance with its MAP, and use the monitoring results for oversight of penalty
determination and violation abatement processes.




                                                    OSHA Needs to Evaluate Penalty Reductions
                                           38                    Report No. 02-10-201-10-105
                                                 U. S. Department of Labor – Office of Inspector General


                                                                                         Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

Has OSHA effectively evaluated the impact of penalty reduction incentives on
workplace safety and health?

Scope

The audit covered 49,192 Federal OSHA inspections of non-Federal employers initiated
during the 2-year period between July 1, 2007, and June 30, 2009. The same policies
and practices for reductions remain in effect today. The inspections resulted in 142,187
citations and $523.5 million in penalties which were reduced by $351.2 million, or
67 percent of total penalties. 1

Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

We evaluated internal controls pertaining to penalty reductions and abatement; and
assessed the reliability of related inspection data maintained on IMIS. We reviewed
OSHA policies and procedures; reports on IMIS controls and penalties; and internal
monitoring reports. We discussed OSHA policies, procedures, and localized practices
for penalty reductions with OSHA National, Regional and Area Office officials. We
discussed settlement procedures and inter-agency coordination with Regional Solicitors
of Labor.

To achieve the audit’s objective, we extensively relied on computer-processed data for
inspections and citations contained in IMIS. We assessed the reliability of this data by
(1) performing analytical tests of data elements, (2) interviewing OSHA officials
knowledgeable about data and system controls, (3) reviewing OIG and GAO reports on
IMIS and OSHA enforcement, (4) utilizing corroborating on-line IMIS records, and
(5) tracing selected data elements to source inspection file documents. Based on these
tests and assessments, we concluded the data was sufficiently reliable to be used in
meeting the audit’s objective.

Compliance officer reduction rates were maintained separate from IMIS data and were
provided by OSHA using data records from Area Offices. We examined the reduction
1
  Citations, penalties and reductions information was obtained through September 18, 2009, for
inspections opened in the 2-year audit period.

                                                           OSHA Needs to Evaluate Penalty Reductions
                                                   39                   Report No. 02-10-201-10-105
                                                  U. S. Department of Labor – Office of Inspector General


rates for obvious errors and inconsistencies by recalculating the initial citation amount
and comparing it to the value in IMIS. We traced the reduction rates to corroborating
documents in sampled inspection files. We believe the reduction rate data is sufficiently
reliable to provide estimates for how penalties were reduced prior to citation issuance.

OSHA penalty reductions occur at two points — compliance officer reductions at initial
citation (i.e., quick-fix, size, history and good faith) and post-citation reductions (i.e.,
informal settlement, amendments, and government dismissed). The two points were
tested separately.

Compliance officer reduction testing

Compliance officer reductions were tested using IMIS data. Reductions were applied on
47,560 inspections or 135,610 citations. We used IMIS data and criteria in OSHA
directives to determine whether the reduction was allowable based on the type of
violation. We found 1,423 inspections with excessive reductions and another 25
inspections with anomalous data. 2

    •   From the 1,423 inspections, 536 inspections had excessive reductions of $1,000
        or more, and represented 81 percent of total excess reductions. From the
        universe of 536 inspections with excessive reductions of $1,000 or more, we
        selected a simple random sample of 35 inspections to confirm compliance test
        results by tracing the IMIS data to inspection file documents. There were no
        sampling errors, thus confirming the accuracy of our test results at a 95 percent
        confidence level and an accuracy of +/- 7 percent.

    •   For the 25 inspections with anomalous data, we judgmentally sampled all
        inspections and concluded that the data was accurate, which verified data
        reliability.

Post-citation reduction testing

Post-citation reductions were tested using two-tiered stratified random samples of Area
Offices and inspections, and results were projected. Post-citation reductions were
applied to 33,838 inspections or 97,253 citations.

Area Offices were stratified based on the number of inspections with reductions, the
average reduction amount, and the average rate of the reductions to the penalties. We
selected a random sample of 6 Area Offices (Fort Worth, TX; Denver, CO; Pittsburgh,
PA; Allentown, PA; Savannah, GA; and Little Rock, AR) out of 84 with post-citation
reductions. For each selected Area Office, we selected random samples of 30
inspections, for an overall total of 180 inspections, with reductions and reviewed the
inspection file documentation for justification. We provided OSHA Regional and Area


2
 Anomalous data consisted of violations with differences between the IMIS and OIG calculated issued
penalty amounts that could not be explained by incorrect or missing compliance officer reduction rates.

                                                            OSHA Needs to Evaluate Penalty Reductions
                                                   40                    Report No. 02-10-201-10-105
                                         U. S. Department of Labor – Office of Inspector General


Office officials with statements of facts and discussed compliance exceptions. Results
were projected at a 90 percent confidence level and an accuracy of +/- 7 percent.

Employers with prior violations

We identified 4,791 employers with two or more inspections (totaling 11,629
inspections) within the period July 1, 2007, through June 30, 2009. Because IMIS does
not relate inspections company-wide, there were inherent limitations to identifying
employers with two or more inspections. While we attempted to mitigate these
limitations, we consider our list of these employers and inspections to be the minimum
that could be identified and verified using the available IMIS data and other resources.
Employers that only had inspections opened on the same date were excluded as OSHA
frequently conducts separate safety and health inspections at the same employer
simultaneously.

Within the list of 4,791 employers with two or more inspections, we identified 2,406
employers, which were cited with violations of similar standards in the 2-year period.
Similar standards were determined using the first eight characters of the standard code.

Criteria

•   Occupational Safety and Health Act of 1970, Public Law 91-596, December 29,
    1970, as amended through January 1, 2004

•   OSHA Instruction CPL 02-00-148, Field Operations Manual, Chapter 6 – Penalties
    and Debt Collection, January 1, 2009 and consolidates policies from:

       o CPL 02-00-103, Field Inspection Reference Manual, Section 8 – Chapter IV -
         Post-Inspection Procedures, September 26, 1994
       o CPL 02-00-112, National Quick-Fix Program, August 2, 1996
       o CPL 02-00-114, Abatement Verification Regulation Enforcement Policies and
         Procedures, May 28, 1998

•   OSHA Instruction CPL 02-00-90, Guidelines for Administration of Corporate-Wide
    Settlement Agreements, June 3, 1991

•   OSHA Instruction EAA 01-00-003, Management Accountability Program,
    July 23, 2007

•   DRAFT OSHA Instruction CPL 02-00-117, Nationwide Expedited Informal
    Settlement Agreements, September 4, 1996




                                                   OSHA Needs to Evaluate Penalty Reductions
                                           41                   Report No. 02-10-201-10-105
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
             42                    Report No. 02-10-201-10-105
                                      U. S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations

CSA                  Corporate-wide Settlement Agreement

Compliance Officer   Compliance Safety and Health Officer

DOL                  U.S. Department of Labor

EAJA                 Equal Access to Justice Act

EEP                  Enhanced Enforcement Program

EISA                 Expedited Informal Settlement Agreement

GAO                  U.S. Government Accountability Office

IMIS                 Integrated Management Information System

ISA                  Informal Settlement Agreement

MAP                  Management Accountability Program

OIG                  Office of Inspector General

OSH Act              Occupational Safety and Health Act of 1970

OSHA                 Occupational Safety and Health Administration

SOL                  Solicitor of Labor, DOL




                                                OSHA Needs to Evaluate Penalty Reductions
                                        43                   Report No. 02-10-201-10-105
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
             44                    Report No. 02-10-201-10-105
                                           U. S. Department of Labor – Office of Inspector General


                                                                                  Appendix D
Glossary of Terms

1. Abatement – Action by an employer to comply with a cited standard or to eliminate
   a recognized hazard identified by OSHA during an inspection.

2. Citation – Written notice describing the nature of the alleged violation (referenced to
   the Act, standard, rule, regulation, or order violated), and fixing a reasonable time for
   the abatement of the violation.

3. Contest – Dispute by an employer of a citation and/or notice of proposed penalty
   before the Occupation Safety and Health Review Commission.

4. Company-wide / Employer-related Company – Includes all locations of the
   company, divisions, or operational units and related companies with common
   ownership, such as parent/subsidiaries in which the parent owns more than 50
   percent.

5. Corporate-wide Settlement Agreement – Signed agreement with an employer to
   extend abatement requirements to all covered locations of the company.

6. Expedited Informal Settlement Agreement – Signed agreement with an employer
   which provides a penalty reduction incentive in exchange for giving up the right to
   contest and agreeing to correct all violations by the abatement date.

7. Final Order – The citation, notice of proposed penalty and abatement date becomes
   a final order after the contest and appeal process has been completed.

8. Gravity of Violation – Based on assessment of (a) the severity of injury or illness,
   which could reasonably be expected to result from the alleged violation; and (b) the
   probability that an injury or illness could occur as a result of the alleged violation.

       a. Severity – Classified as High (death, permanent disability, or chronic,
          irreversible illness); Medium (hospitalized injury, not of a permanent nature);
          or Low (an injury requiring only minor supportive treatment).

       b. Probability -- Categorized as Greater or Lesser determined by considering
          factors such as the number of employees exposed, frequency or duration of
          exposure, and employee proximity to the hazardous conditions.

9. Gravity-Based Penalty – Unadjusted penalty determined for each violation based
   on the severity and probability assessments; professional judgment; and OSHA
   guidelines on penalty levels (e.g., $5,000 for high gravity; $2,000 to $3,500 for
   medium gravity; and $1,500 for low gravity serious violations).




                                                     OSHA Needs to Evaluate Penalty Reductions
                                             45                   Report No. 02-10-201-10-105
                                              U. S. Department of Labor – Office of Inspector General


10. Informal Settlement Agreement – Signed agreement with an employer resulting
    from the informal conference or afterward, but prior to the end of the contest period.

11. Penalty Reductions –

       a. Good Faith – A 25 percent reduction to recognize an employer’s effort to
          implement an effective safety and health management system in the
          workplace. A 15 percent reduction may be granted if the safety and health
          plan has incidental deficiencies. No reduction allowed on repeat, willful, or
          high-gravity serious violations. If one violation is classified as willful, no
          reduction for good faith can be applied to any violation in the inspection.

       b. History – 10 percent reduction given to employers who have not been cited
          for any serious, willful, or repeated violations in the prior 3 years.

       c. Quick-Fix – abatement incentive program using a 15 percent reduction to
          encourage employers to immediately abate hazards found in an inspection
          and prevents potential employee injury, illness, and death. Corrective action
          to abate a violation must be permanent and substantial and not temporary
          and superficial. No reduction allowed on repeat, willful, or high-gravity serious
          violations, or on inspections with fatalities or hospitalized injuries.

       d. Size – Calculated based on the maximum number of employees nationwide
          that the employer has at any time during the previous 12 months. Reduction
          rates range from zero for very large employers to 80 percent for willful
          violations of small employers.

                       Willful Violations           Other Types of Violations
                  Employees        Max Rate         Employees      Max Rate
                  10 or fewer          80           25 or fewer        60
                  11-20                60           26-100             40
                  21-30                50           101-250            20
                  31-40                40           251 or more         0
                  41-50                30
                  51-100               20
                  101-250              10
                  251 or more           0

12. Violation Types –

       a. Serious – Substantial probability that death or serious physical harm could
          result from a condition which exists, or from one or more practices, means,
          methods, operations, or processes which have been adopted or are in use, in
          such place of employment unless the employer did not, and could not with the
          exercise of reasonable diligence, know of the presence of the violation.

       b. Willful – Either an intentional violation of the Act or plain indifference to its
          requirements. The employer committed an intentional and knowing violation if

                                                        OSHA Needs to Evaluate Penalty Reductions
                                               46                    Report No. 02-10-201-10-105
                                   U. S. Department of Labor – Office of Inspector General


   (1) aware of the requirements of the Act, applicable standard or regulation, or
   comparable legal requirements; (2) aware of a condition or practice in
   violation of those requirements, and (3) did not abate the hazard.

c. Repeat – Cited previously for a substantially similar condition and the citation
   has become a final order.

d. Failure-to-Abate – Violation that has not been corrected for an issued citation
   and the abatement deadline has passed.




                                             OSHA Needs to Evaluate Penalty Reductions
                                     47                   Report No. 02-10-201-10-105
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
             48                    Report No. 02-10-201-10-105
                                U. S. Department of Labor – Office of Inspector General


                                                                       Appendix E
OSHA Response to Draft Report




                                          OSHA Needs to Evaluate Penalty Reductions
                                 49                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 50                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 51                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 52                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 53                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 54                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 55                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 56                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 57                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 58                    Report No. 02-10-201-10-105
U. S. Department of Labor – Office of Inspector General




          OSHA Needs to Evaluate Penalty Reductions
 59                    Report No. 02-10-201-10-105
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      OSHA Needs to Evaluate Penalty Reductions
             60                    Report No. 02-10-201-10-105
                                       U. S. Department of Labor – Office of Inspector General


                                                                              Appendix F
Acknowledgements

Key contributors to this report were Mark Schwartz (Audit Director), Rebecca Bowen,
Jason Jelen, Danielle Brown-Buzan, Eliacim Nieves-Perez, John Schick, Reza Noorani
and Mary Lou Casazza.




                                                 OSHA Needs to Evaluate Penalty Reductions
                                         61                   Report No. 02-10-201-10-105
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
